<html>
<title> - COMBATTING TERRORIST TRAVEL: DOES THE VISA WAIVER PROGRAM KEEP OUR NATION SAFE?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  COMBATTING TERRORIST TRAVEL: DOES THE VISA WAIVER PROGRAM KEEP OUR 
                              NATION SAFE?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

                            Serial No. 114-8

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                    

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                            __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-579 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Steven M. Palazzo, Mississippi       Donald M. Payne, Jr., New Jersey
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Scott Perry, Pennsylvania            Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Kathleen M. Rice, New York
John Katko, New York                 Norma J. Torres, California
Will Hurd, Texas
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                 Candice S. Miller, Michigan, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Lou Barletta, Pennsylvania           Brian Higgins, New York
Will Hurd, Texas                     Norma J. Torres, California
Martha McSally, Arizona              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Dr. Marc E. Frey, Senior Director, Steptoe and Johnson, LLP:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Roger J. Dow, President and Chief Executive Officer, U.S. 
  Travel Association:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Dr. Steven P. Bucci, Director, The Douglas and Sarah Allison 
  Center for Foreign and National Security Policy, The Heritage 
  Foundation:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. Brian Michael Jenkins, Senior Adviser to the RAND President, 
  The RAND Corporation:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  H.R. 48........................................................    35

 
  COMBATTING TERRORIST TRAVEL: DOES THE VISA WAIVER PROGRAM KEEP OUR 
                              NATION SAFE?

                              ----------                              


                        Tuesday, March 17, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairman of the subcommittee] presiding.
    Present: Representatives Miller, Barletta, Hurd, McSally, 
Vela, Jackson Lee, and Torres.
    Mrs. Miller. The Committee on Homeland Security, our 
Subcommittee on Border and Maritime Security, will come to 
order. The subcommittee is meeting today to examine the Visa 
Waiver Program and its effect on terrorist travel.
    We are pleased today to be joined by Dr. Marc Frey of the 
Steptoe Johnson law firm, Mr. Roger Dow of the U.S. Travel 
Association, Dr. Steven Bucci of the Heritage Foundation, and 
Mr. Brian Michael Jenkins of the RAND Corporation. I will 
formally introduce them in just a moment. But I would like to 
make my opening statement first, myself and the Ranking Member.
    Over the past year, the Islamic State of Iraq and the 
Levant or ISIL and several other extremist groups have 
attracted tens of thousands of young men and women to join 
their ranks; many of whom hold passports in France, the United 
Kingdom, Belgium, Canada, and other Western nations, including 
United States. Many foreign fighters could be just one flight 
away, bringing with them the skills, training, ideology, and 
commitment to killing Americans that they have learned 
overseas.
    The threat that these foreign fighters pose is significant 
and growing in large part because the terrorists with Western 
passports are eligible for visa-free travel to the United 
States through the Visa Waiver Program. If we do not have good 
intelligence on the travel of these fighters or our allies in 
the Visa Waiver Program are not appropriately sharing what they 
know, then U.S. citizens could be at risk.
    Last year, this subcommittee held a hearing on the Visa 
Waiver Program, where we heard from Government witnesses. We 
have called this hearing today to get an independent look at 
this program from outside experts. The Visa Waiver Program was 
designed to facilitate travel, to reduce the burden on the 
State Department, and to help encourage travel to the United 
States. However, after the tragic events of September 11, 2001, 
the program evolved to be a significant counterterrorism tool 
by simultaneously facilitating legitimate trade and travel.
    Now, let me just state from the outset that I believe that 
this program is very effective at both facilitating travel and 
increasing our National security. Through the addition of the 
Electronic System for Travel Authorization--that we call ESTA--
the information that CBP knows about a traveler before they get 
on a plane significantly increases our security.
    Some of my colleagues have called for the Visa Waiver 
Program to be canceled or suspended. I personally think that is 
misguided. Millions of travelers fly using VWP every year, and 
stopping this program would bring cost to our economy and CBP 
would lose an important source of information for screening 
travelers entering the United States. In addition, information-
sharing agreements, which are a prerequisite for membership, 
are also a key part of the intelligence that keeps Americans 
safe.
    Make no mistake, terrorists are indeed looking for 
weaknesses in our defenses, and we have to prevent them from 
succeeding. Rather than end this valuable program, we need to 
continually evaluate the program to make sure it adequately 
balances our economic and security needs, especially in the 
light of the growing threat of foreign fighters entering the 
United States. Expansion of the program should only be done 
when it aligns with the security and economic interests of the 
United States, once a viable biometric exit system is in place, 
which can lead to more accurate reporting of visa overstay 
rates by our country.
    To that end, I continue to call on this administration to 
publically release visa overstay rates, which are currently 
obtained through the flawed biographic system. While I am not 
surprised by the administration's lack of transparency on this, 
I am disappointed. The visa overstay report was promised to 
this Congress by Secretary Napolitano. While complete, the 
report continues to be held up by the White House. I urge the 
release of this report. The delay only serves to reinforce our 
belief that a biometric system would produce more timely and 
accurate results and could lead to expansion of this program 
for some of our Nation's most trusted allies.
    Earlier this year, I introduced H.R. 158, the Visa Waiver 
Program Improvement Act that I believe will help to minimize 
the ability of terrorists to exploit the program. The bill 
allows the Secretary of Homeland Security to suspend 
participation of countries in the VWP if they do not share 
critical terrorism and foreign traveler data with the United 
States consistent with the program's underlying agreements.
    This bill also requires the Department of Homeland to 
consider collecting additional pieces of information on ESTA 
applications to better screen foreign travelers, and requires 
an annual intelligence assessment conducted by the director of 
national intelligence and DHS to assess airport, passport, and 
travel document standards. This sounds like common sense. I 
think it is. Was very pleased that Secretary Johnson also 
called for adding of additional data elements to the ESTA 
application in November after this bill was initially 
introduced that called for a look at additional data elements 
to be considered.
    Although CBP continuously vets all visa and ESTA applicants 
against our terrorist holdings, that information is imperfect 
if we do not have a complete picture of an individual's travel 
route. Collecting more information up-front will be helpful to 
do just that. Critical information sharing, especially with our 
European allies, is vital to help combat the threat of foreign 
fighters bound for the United States.
    Unfortunately, Europe as a whole has been reluctant 
sometimes to share certain passenger name record data or PNR 
data with the United States, and such a gap puts United States 
citizens at risk. We recently learned that it was only after a 
prominent terrorist attack overseas that a Visa Waiver country 
provided the Department of Homeland Security names of 
individuals which pose a terror concern. Some of the names 
shared were not even on our radar screen previously.
    Unfortunately, this demonstrates that we still have an 
information-sharing problem with some of our closest allies. 
Our bill gives the Department of Homeland the leverage it needs 
to make sure the information critical to our homeland security 
is being shared appropriately. As we have noted on many 
occasions, the 9/11 Commission was crystal-clear on this point 
when they said for terrorists, travel documents are as 
important as weapons.
    So I certainly look forward to hearing from our witness 
today on the value of the Visa Waiver Program and what further 
changes we should look at to strengthen the Visa Waiver Program 
to combat the threat of foreign fighters. This subcommittee has 
a long record of interest and oversight when it comes to visa 
and travel document security. The reason for that, obviously, 
is very clear. Many terrorist plots and attacks have been 
successful or nearly successful because of holes in our visa 
and border security defenses. Defeating terrorists' ability to 
move internationally has long been a focus area for this 
subcommittee. There certainly is more that we can do and need 
to do to prevent attacks and limit terrorist mobility. That is 
the purpose of our hearing today.
    The Chairman now recognizes the Ranking Minority of this 
subcommittee, the gentleman from Texas, Mr. Vela. Let me just 
mention that I am very, very delighted to have him serve as the 
Ranking Member. I certainly am looking forward to working very 
closely with him as we go through the 114th Congress on issues 
of bipartisan concern. There is nothing more concerning, 
certainly, than providing for the common defense, which is 
actually in the preamble of our Constitution, and is a 
principle reason for this committee. Thank you.
    Mr. Vela. I agree, Chairman Miller, that this issue is one 
that has bipartisan support, because we all know how important 
it is to protect our country against terrorism. I want to thank 
you for holding today's hearing regarding the security of Visa 
Waiver Program.
    As Chairman Miller and I both represent border districts 
with maritime interests, albeit on different borders, I believe 
we have many areas of mutual interest and concern to address in 
our work as this subcommittee moves forward.
    Today, we are focusing on a border security issue of a 
different kind than what we are used to discussing; the 
security of a program that facilitates the travel of millions 
of visitors to this country each year, the Visa Waiver Program. 
In fact, with 38 countries currently participating in the 
program, about 40 percent of all overseas visitors enter the 
United States without a visa pursuant to the Visa Waiver 
Program.
    Unfortunately, there is a growing concern that the Visa 
Waiver Program could be exploited by terrorists, and 
particularly those holding Western passports, who could attempt 
to travel to this country under this program.
    With direction and support from Congress, in recent years 
the Department of Homeland Security has worked to strength the 
security of the Visa Waiver Program through the Electronic 
System for Travel Authorization and its other predeparture 
passenger screening programs. These programs complement and are 
supported by information-sharing agreements with Visa Waiver 
Program partnerships--partners that provide Department of 
Homeland Security with data to vet travelers more effectively.
    With thousands of foreign fighters traveling to and from 
Syria, some of whom hold Western passports, concerns about the 
security of the Visa Waiver Program are not entirely unfounded. 
I hope our witnesses can share with us their perspectives on 
whether the Visa Waiver Program is secure or if Congress and 
the Department of Homeland Security need to do more to shore up 
this very important program.
    As a Member representing a border district, I am keenly 
aware of the importance of international travel and trade to 
our Nation and its economy. I believe I join many of my 
colleagues in the hope that we can find a way to ensure the 
security of the Visa Waiver Program, while continuing to 
welcome visitors under the program to the United States.
    Again, I thank the witnesses for joining us. I look forward 
to our discussion today and to a productive Congress for this 
subcommittee.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                             March 17, 2015
    Thank you for holding today's hearing regarding the security of the 
Visa Waiver Program (VWP).
    As Chairman Miller and I both represent border districts with 
maritime interests, albeit on different borders, I believe we have many 
areas of mutual interest and concern to address in our work.
    Today, we are focusing on a border security issue of a different 
kind than what we are used to discussing--the security of a program 
that facilitates the travel of millions of visitors to this country 
each year, the Visa Waiver Program (VWP).
    In fact, with 38 countries currently participating in the program, 
about 40 percent of all overseas visitors enter the United States 
without a visa pursuant to the VWP.
    Unfortunately, there is growing concern that the VWP could be 
exploited by terrorists, and particularly those holding Western 
passports, who could attempt to travel to this country under program.
    With direction and support from Congress, in recent years DHS has 
worked to strengthen the security of the VWP, through the Electronic 
System for Travel Authorization (ESTA) and its other pre-departure 
passenger screening programs.
    These programs complement and are supported by information-sharing 
agreements with VWP partners that provide DHS with data to vet 
travelers more effectively.
    Still, with thousands of foreign fighters traveling to and from 
Syria, some of whom hold Western passports, concerns about the security 
of the VWP are not entirely unfounded.
    I hope our witnesses can share with us their perspectives on 
whether the VWP is secure, or if Congress and DHS need to do more to 
shore up this important program.
    As a Member representing a border district, I am keenly aware of 
the importance of international travel and trade to our Nation and its 
economy.
    I believe I join many of my colleagues in the hope that we can find 
a way to ensure the security of the VWP while continuing to welcome 
visitors under the program to the United States.

    Mrs. Miller. Thank you very much.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 17, 2015
    I would also like to thank the witnesses for appearing today to 
testify about the Visa Waiver Program (VWP) and its implications for 
our Nation's security. Since its establishment in the wake of the 
terrorist attacks of 9/11, this committee has been actively engaged in 
helping to address the threat of terrorist travel. Our focus has 
included addressing the potential security vulnerabilities of the VWP 
and ways to prevent terrorists from exploiting the program.
    For example, as Chairman I authored a key provision of the 9/11 Act 
requiring the implementation of an Electronic System for Travel 
Authorization (ESTA) to provide DHS with more information about VWP 
travelers prior to their departure for the United States.
    From the inception of the ESTA program in August 2008, CBP has 
approved over 80 million ESTAs but denied over 4,300 applications as a 
result of vetting against the Terrorist Screening Database. Also, CBP 
has denied over 35,000 applications for individuals who applied for an 
ESTA using a passport reported lost or stolen.
    Recently, the VWP has been the subject of renewed attention due to 
concerns about the potential threat posed by foreign fighters with the 
Islamic State of Iraq and the Levant (ISIL), and particularly those 
holding Western passports who could attempt to travel under the VWP.
    In response to this foreign fighter threat, late last year DHS took 
the step of enhancing the ESTA program by requiring travelers to 
provide additional data elements on their ESTA applications. This 
additional data allows DHS to better vet VWP travelers prior to 
departure to the United States, in turn better securing the VWP. It is 
imperative that DHS and their Federal partners continue to work with 
Congress to identify and address any new or outstanding vulnerabilities 
within the VWP. At the same time, it is important not to focus 
exclusively on Western foreign fighters and the VWP such that we lose 
sight of other individuals who may seek to do us harm via othermeans.
    Finally, we should remain mindful that the overwhelming majority of 
travelers to the United States, whether under the VWP or otherwise, are 
legitimate travelers coming to this country for business or pleasure. 
About 19 million people from VWP countries visited the United States in 
fiscal year 2012, accounting for 40 percent of all international 
visitors. We welcome their visits, embrace the cultural exchange, and 
recognize their important contributions to America's economy.
    Today, I look forward to hearing from the witnesses about their 
perspectives on VWP as it currently exists, and whether the program can 
be made more secure while continuing to allow us to welcome visitors 
from around the world.

    Mrs. Miller. Again, as I mentioned, we are pleased to be 
joined by four distinguished witnesses to discuss today's very 
important issue.
    First of all, Dr. Marc Frey is a senior director in the 
Washington office of Steptoe and Johnson, which is an 
international law firm. Prior to joining Steptoe, Dr. Frey held 
several senior positions at the Department of Homeland 
Security, including the director of the Visa Waiver Program 
from 2007 to 2010. In that role, he oversaw the development and 
implementation of the VWP and directed the successful effort to 
enhance its security futures. Dr. Frey also serves as a senior 
associate with the Center for Strategic and International 
Studies and is a member of the American Council on Germany and 
the Atlantic Council of the United States. We welcome you, sir.
    Mr. Roger Dow is the president and CEO of the U.S. Travel 
Association, the National association representing all segments 
of travel if the United States. In this role, Mr. Dow leads 
U.S. travel efforts to advocate for improved travel 
facilitation and visa reform and to provide travel research and 
analysis. We welcome you, sir.
    Dr. Steven P. Bucci is the director of the Doug and Sarah 
Allison Center for Foreign and National Security Policy Studies 
at the Heritage Foundation, a position that he has held since 
2012. Prior to working at the Heritage Foundation, Dr. Bucci 
spent many years in the military, including service as the 
commander of the 3rd Battalion, 5th Special Forces. In 2001, he 
assumed his position as military assistant to Secretary Donald 
Rumsfeld in the Pentagon, where he was stationed on the 
terrorist attacks of September 11. We welcome you. Thank you 
for your service to this Nation.
    Mr. Brian Michael Jenkins is a senior adviser to the 
president of the RAND Corporation and author of numerous books, 
reports, and articles on terrorism and terrorism-related 
topics. Mr. Jenkins is also a decorated combat veteran, having 
served with the 5th Special Forces Group in Vietnam. Welcome 
home. In 1996, Mr. Jenkins was appointed to the White House 
Commission on aviation safety and security. From 1999 to 2000, 
he served as adviser to the National Commission on Terrorism. 
In 2000, was appointed to the U.S. Comptroller General's 
Advisory Board. So our witnesses' full statement will appear in 
the record.
    The Chairman now recognizes Dr. Frey for his testimony.

    STATEMENT OF MARC E. FREY, SENIOR DIRECTOR, STEPTOE AND 
                          JOHNSON, LLP

    Mr. Frey. Thank you, Chairman Miller. Good morning. It is 
my pleasure to be here this morning to talk about the Visa 
Waiver Program and be part of this distinguished panel.
    I think to start off, what I would like to say is--and I 
guess this is a good way to start off--is to agree with you and 
agree with the Ranking Member to answer the question that the 
hearing's title posed, does the Visa Waiver Program keep us 
safe? I think answer to that is unequivocally yes. It is a 
critical counterterrorism and security tool for the United 
States that also facilitates travel. I would like to spend a 
little bit of time this morning talking specifically about why 
that is.
    Because as you also mentioned, this is a timely hearing. 
Given the threats we are facing today from foreign fighters in 
particular, it is our responsibility to continue to evaluate 
programs like the VWP to continue to ensure that they are 
meeting the current threat environment. The good news with 
respect to the VWP in particular is there is a history of 
Congress and the Executive branch doing just that; working 
together to periodically reform and modernize the program to 
adapt to current threats. The most significant reform, and the 
one that is the basis for most of what we will be talking about 
today, was the reforms implemented in 2007 under the 9/11 
Commission Act, which produced ESTA, produced information-
sharing agreements and other things we will go into.
    But before doing that, I would like to, you know, take a 
little bit of time just to talk about what the Visa Waiver 
Program is and, perhaps equally important, what it isn't. 
Because there does seem to be a perception, as I think you also 
said, Chairman Miller, that these people are just one flight 
away. In one sense that is, of course, true. But a statement 
like that obscures all of the work and all of the screening 
that DHS in particular and CBP and other agencies in the U.S. 
Government do to make sure that we are vetting Visa Waiver 
Program travelers appropriately.
    So when the Visa Waiver Program waives the consular 
interview portion, it makes up for it with a whole host of 
other security requirements. One of these, of course, is ESTA, 
the Electronic System for Travel Authorization, which we have 
talked about, which does individualized prescreening and 
vetting of Visa Waiver Program travelers. That vetting is 
recurrent. So it is not that you get your ESTA and then you are 
good for the eligibility period. It is that ESTA continually 
vets applicants' data against lists and derogatory information, 
and ESTAs can can be revoked if new information comes to light.
    The second piece of the Visa Waiver Program that is 
important in this context is the information-sharing and 
intelligence-sharing agreements that we talked about. Those are 
particularly important because the benefit or the information 
that the United States Government receives from those 
agreements, is fed into the ESTA vetting process. So that 
ensures to the extent we can that we have as much information 
on bad actors in foreign countries that we need to do our 
screening.
    But there are two other parts that I think are also worth 
mentioning as to why the Visa Waiver Program helps keep us safe 
and is a key security program. The first of these is secure 
passports. The Visa Waiver Program mandates that travelers 
travel on electronic passports. These are passports that 
contain the biometric chip that also have the information, a 
digital paragraph, increasingly fingerprints, that matches the 
bio page. These are much, much harder to forge and to use 
fraudulently than regular passports. It is only within the 
context of the VWP that travelers are required to use these. So 
we have a much better confirmation of identity.
    The other piece that I think is worth talking about are the 
regular DHS-led audits of Visa Waiver Program countries. It is 
a pretty--having led and participated in a number of these 
audits, it is a pretty remarkable tool that allows a team of 
DHS experts, supplemented by personnel from other agencies as 
appropriate, to visit a country and spend up to a week or 10 
days or so reviewing security standards, border security 
standards, aviation security standards, passport standards, 
talking to their counterterrorism and security and law 
enforcement officials, and really giving U.S. Government 
visibility into the security practices of these countries.
    To the extent the Department finds particular issues or 
items that are not up to our standards, mitigation measures can 
be both recommended and, in certain cases, insisted upon. It is 
a collaborative effort. But it is one where we have a 
remarkable insight into how other countries do their security, 
including in this context how other countries are able to both 
identify and track potential radicalized individuals who may 
become foreign fighters.
    So in that sense, it is a very powerful tool. Those four 
elements really do work together to make the Visa Waiver 
Program important and an important security tool. That said, it 
can be evaluated. It should be evaluated, as we are doing 
today. So I think this hearing serves an excellent purpose. I 
think some of the reforms in the Visa Waiver Improvement Act of 
2015 meet that objective. As you said, they are sensible 
reforms. They are things DHS should be looking at. In some 
cases, they are things that DHS is doing already. I think that 
should be encouraged.
    I look forward to answering more of your questions going 
forward about the program and about the H.R. 158, the Visa 
Waiver Improvement Act, in particular. Thank you.
    [The prepared statement of Mr. Frey follows:]
                   Prepared Statement of Marc E. Frey
                             March 17, 2015
    Thank you Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee, for this opportunity to testify on the Visa Waiver 
Program (VWP) and its important role in keeping our Nation safe and 
secure. My name is Marc Frey. I am a senior director at Steptoe & 
Johnson LLP, an international law firm. Prior to joining Steptoe I 
served in several positions at the Department of Homeland Security 
(DHS), including as director of the Visa Waiver Program. In that role I 
oversaw the successful effort to enhance the security of and expand the 
VWP and managed the security assessments of member countries.
    The unequivocal answer to the question posed by in the title of 
this hearing is ``Yes.'' The Visa Waiver Program enhances U.S. security 
and is a critical element of the layered border security approach the 
United States has implemented since September 11, 2001. The VWP helps 
to ensure that our country remains open for travel and trade while 
preventing terrorists and criminals from crossing our border.
    Following the terrorist attacks in Paris earlier this year 
commentators have speculated on the possibility of an attack on U.S. 
soil by terrorists possessing passports from France or other VWP 
countries. Many in the media and elsewhere labor under the 
misapprehension that security standards are looser for VWP travelers 
than for those traveling with a visa, and that this poses a threat to 
U.S. security. Concerns have been raised, for example, about the 
ability of foreign fighters with ``Western'' passports to enter the 
United States under the VWP by circumventing the consular interview.
    Under the VWP, DHS waives the ``B'' nonimmigrant visa requirement 
for aliens traveling from the 38 approved countries, permitting stays 
of up to 90 days for business or tourism. A consular interview is not 
required. But, that does not mean that DHS waives security requirements 
for these travelers. To the contrary, the Department mandates 
additional, more stringent security requirements, for both the 
individual traveler and his or her home country. The result is a system 
that today provides as much security against terrorist or criminal 
travelers as the visa system.
    Like any successful security program, VWP has been closely reviewed 
over the years, periodically undergoing reform and modernization to 
ensure that it responded to emerging threats and challenges. In the 
face of today's complex and persistent threat environment, we can and 
should identify ways to ensure the VWP's security standards remain 
robust. The ``Visa Waiver Program Improvement Act of 2015'' (H.R. 158) 
includes a number of provisions that further this objective.
                          evolution of the vwp
    Since its inception in the late 1980s, the VWP has evolved into an 
essential tool for increasing global security standards, advancing 
information sharing, strengthening international relationships, and 
promoting legitimate trade and travel to the United States. Over the 
past decade in particular, Congress and the Executive branch have 
worked together to implement a number of enhancements to the VWP to 
address evolving threats to international travel and to the United 
States homeland. Therefore, although critics of the VWP often continue 
to cite the example of the ``Shoe Bomber'' Richard Reid, who as a 
British citizen traveled under the VWP in December 2001, the measures 
put in place over the past dozen years have successfully addressed this 
risk to date.
    For example, in 2003 new requirements were put in place to tighten 
passport security standards for VWP travelers and to increase the 
frequency with which countries are formally reviewed for their 
designation status. Furthermore, in order to align with the 
recommendations of the 9/11 Commission, Congress mandated additional 
security requirements to VWP, including standards for secure travel 
documents, individualized pre-screening of travelers, bilateral 
information-sharing arrangements, prompt reporting of lost and stolen 
passports, and a threat assessment conducted by the director of 
national intelligence. Appropriately, these changes were enacted as 
part of the Secure Travel and Counterterrorism Partnership Act of 2007.
                   key security components of the vwp
    As described below, the VWP enhances U.S. security in four mutually 
reinforcing ways:
  <bullet> It enables individualized and recurrent screening of 
        travelers against law enforcement and security databases;
  <bullet> It mandates bilateral and multilateral information and 
        intelligence sharing;
  <bullet> It requires secure passports to confirm identity; and
  <bullet> It permits regular audits of the security standards of 
        participating countries.
    First, the VWP screens all travelers against multiple law 
enforcement and security databases, including the Terrorist Screening 
Database, before they depart for the United States. Using the on-line 
Electronic System for Travel Authorization (ESTA), a VWP traveler is 
required to provide biographic information (including name, date of 
birth, and passport number) as well as his or her destination address 
in the United States. The traveler is also required to answer questions 
regarding communicable diseases, arrests, convictions for certain 
crimes, and past history of visa revocation or deportation. In November 
2014, DHS expanded the personal data required for an ESTA application, 
to include national identity numbers for those who have them and data 
from a second passport if that passport is not from a VWP country, 
among other data elements. As a result, ESTA functions as a powerful 
screening tool, enabling recurrent, individualized vetting of 
travelers. Travelers without an ESTA approval cannot board a flight to 
the United States.
    Second, the VWP mandates robust information and intelligence 
sharing between the United States and its VWP partners, including 
agreements to share information on known or potential terrorists and 
criminals and to report lost and stolen passport (LASP) data to 
INTERPOL. Supplementing the U.S. Government's ``watch lists'' and other 
databases with these three pieces of information from a traveler's home 
government greatly enhances DHS's ability to identify and stop 
travelers who pose a threat. Likewise, information the United States 
provides VWP member countries under these agreements helps their 
governments identify and disrupt terrorist and criminal travel to, 
from, and within their own borders.
    Third, all VWP travelers must use secure travel documents that meet 
internationally recognized standards, which allows for easier detection 
of forged or fraudulent passports. The majority of VWP travelers are 
required to use electronic passports (e-passports), which have an 
embedded chip that includes the bearer's biometric information.\1\ At 
the port of entry, the biographic and biometric data contained in the 
electronic chip is compared to both the traveler and the travel 
document being presented. There are many other layers of technical 
security in the e-passport production process and the document itself 
that make duplication or forgery much less likely.
---------------------------------------------------------------------------
    \1\ All passports issued after October 26, 2006, presented by 
aliens entering under the VWP must be electronic passports.
---------------------------------------------------------------------------
    Lastly, VWP countries are required to undergo periodic eligibility 
reviews designed to ensure that VWP membership does not compromise U.S. 
security, law enforcement, and immigration enforcement interests. These 
comprehensive assessments are conducted by DHS, with the assistance of 
other U.S. Government agencies as appropriate. Critically, these 
reviews involve a site visit during which a team of U.S. Government 
subject-matter experts examines the country's security and law 
enforcement capabilities and procedures. Among other issues, a site 
visit focuses on the existence of radicalized groups in the country and 
the government's efforts to address this concern. The findings from the 
site visit form the core of the comprehensive DHS evaluation of a 
country's fitness to continue participating in the VWP. Should DHS 
identify any issues or concerns during the course of its review, it can 
flag them for follow-up and/or propose and insist on mitigation 
measures.
    To complement these reviews and to ensure recommended mitigation 
measures are carried out, DHS has developed a vigorous monitoring 
process to ensure awareness of changing conditions in VWP countries. 
This monitoring process includes regular consultation with U.S. law 
enforcement and intelligence agencies, as well as frequent 
communication with U.S. embassies abroad and foreign embassies in 
Washington for updates on law enforcement or security concerns related 
to the VWP. Overall, no other program provides the U.S. Government with 
the opportunity to conduct as far-reaching and consequential audits of 
foreign security standards, ensuring alignment with our high standards 
for managing risk.
    Under current law, DHS has the authority to immediately terminate a 
country's membership if an emergency occurs in the country that 
threatens the law enforcement or security interest of the United 
States. The director of national intelligence is also able to recommend 
immediate suspension to DHS if any current and credible threat poses an 
imminent danger to the United States or its citizens and originates 
from a country participating in the VWP. H.R. 158 helpfully supplements 
these authorities by providing explicitly for program suspension should 
DHS, in consultation with the State Department, determine that a member 
country is not meeting its information-sharing obligations.
    That the modernized VWP enhances U.S. security is widely recognized 
by security experts across the political spectrum. The last three 
secretaries of homeland security, for example, have praised the 
program's contribution to U.S. and international security. Indeed, for 
precisely that same reason, both the Bush and Obama administrations 
have added countries to the VWP. The VWP's security components make so 
much sense, in fact, that they are setting global standards for 
countering terrorist travel. A September 2014 U.N. Security Council 
Resolution on security measures to better track and deter terrorist 
travel activity reflects practices the VWP has enforced for member 
countries since 2008.
                    the vwp and u.s. border security
    Because of its strong security components, the VWP has become an 
integral part of the U.S. Government's ability to identify security or 
other risks associated with travelers at the earliest possible point 
and push-out our ``virtual'' border. In particular, the VWP helps 
answer the three key questions necessary to implement an effective 
risk-based border screening system:
  <bullet> ``Who is a threat?''--U.S. officials need to identify known 
        and suspected terrorists as well as other individuals who may 
        pose a threat.
  <bullet> ``Is the person coming to the United States?''--U.S. 
        officials need to know, as early as possible, if the traveler 
        should be examined more closely.
  <bullet> ``Is the person really who he says he is?''--U.S. officials 
        determine if the traveler is presenting fraudulent documents.
Who Is a Threat?
    The U.S. Government collects and maintains an array of information 
designed to identify those associated with terrorism or other illicit 
activities. These ``watch lists'' use identifiers--primarily 
biographic-based, but increasingly incorporating biometrics--to support 
border-screening protocols and procedures. However, when it comes to 
identifying dangerous individuals from abroad, the U.S. Government is 
not the only, or necessarily the best, source of information. In fact, 
if you wanted to identify potentially dangerous individuals from a 
particular country, say the United Kingdom, your first stop would not 
be Washington; it would be London. Many European countries have rapidly 
growing ethnic and religious immigrant communities, a small minority of 
which has the potential to become radicalized. It makes sense then that 
the person's home country is the best source of information about which 
of its citizens or residents is most likely to pose a risk to the 
United States. This kind of unprecedented bilateral and multi-lateral 
information sharing mandated by the VWP, along with the routine audits 
and inspections made possible by the program improves the U.S. 
Government's overall ability to identify bad actors and activity.
Is the Person Coming to the United States?
    DHS begins the screening process well before a potentially risky 
traveler reaches the U.S. border; in fact, DHS begins the process 
before the traveler even arrives at an airport through ESTA. In 
addition to the ESTA requirement for VWP travelers, DHS requires 
airlines to provide a copy of their passenger manifests and data from 
their reservation files. This information--which applies to all 
travelers and is provided to DHS a minimum of 72 hours in advance--
helps the agency determine who to allow on-board a U.S.-bound plane, 
who requires further screening and investigation upon arrival, and who 
should be turned away and referred to appropriate law enforcement 
personnel. These advance-screening measures give DHS a better, more 
informed understanding of who is coming to the United States.
Is the Person Really Who He Says He Is?
    No amount of ``watch listing'' and passenger screening will detect 
terrorists if they are able to travel on an assumed identity with 
fraudulently obtained or fake documents. In order to verify that people 
are who they say they are when they travel, DHS insists on high 
standards for documents acceptable for entry to the United States. 
These standards are highest for VWP travelers. For example, the 
electronic passports mandated by the VWP enable DHS to incorporate 
biometric verification--digital photographs and, increasingly, 
fingerprints--in the screening process to confirm that the person 
presenting the document is the person that the document describes. And, 
DHS routinely audits the document production and issuance process in 
VWP countries to ensure standards are being met. In other words, VWP 
makes it harder to enter the United States using fraudulent documents 
and forged identities.
    These three elements--who's risky, who's coming here, and who's 
who--work together both prior to take-off and at the port of entry to 
help U.S. officials identify terrorists and criminals and prevent them 
from traveling here.
                         strengthening the vwp
    It is essential that we continually look to identify possible 
enhancements to the VWP in the face of current threats, much like DHS 
continually evaluates participating countries and recommends 
improvements to their security postures. In addition to program 
suspension authority, the Visa Waiver Program Improvement Act of 2015 
proposes other sensible ways to strengthen the program and build on its 
successes, such as requiring an evaluation of ESTA and making a handful 
of discretionary considerations mandatory. However, any measure that 
would curtail the program even temporarily would be damaging and 
wrongheaded. Rather than enhance U.S. security, such a step would 
undermine it, resulting in the loss of significant leverage over the 
security standards of both current and prospective members, to say 
nothing of the severe economic and diplomatic consequences.
    For current VWP members, suspension of the program would undermine 
current information and intelligence-sharing mechanisms and deprive the 
United States of visibility into their security practices, including 
those to prevent radicalization and identify and track foreign 
fighters. It would also undermine relationships with our closest allies 
in the face of common threats ranging from ISIS to a resurgent Russia. 
For prospective members, the disappearance of the program would remove 
a powerful and proven incentive to elevate security standards and to 
enhance cooperation with the United States on security matters.
    While emotional responses often occur in times of heightened 
security concerns, any discussion of the VWP and U.S. security must 
remain focused on the facts. And the facts are that the VWP has proven 
to be an effective leverage point for raising and maintaining security 
standards while providing unprecedented levels of information sharing 
and access, allowing the United States to better manage risk. To return 
to the question posed in the hearing's title, the Visa Waiver Program 
undoubtedly has helped to keep our Nation safe. Implementing sensible 
enhancements, such as those proposed by H.R. 158, can ensure that it 
will continue to do so.
    Again, thank you for inviting me to testify today. I look forward 
to answering any questions the subcommittee may have.

    Mrs. Miller. Thank you.
    The Chairman now recognizes Mr. Dow for his testimony.

   STATEMENT OF ROGER J. DOW, PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, U.S. TRAVEL ASSOCIATION

    Mr. Dow. Thank you. That is very nice of you. Thank you.
    The travel industry's top priority is ensuring that 
travelers are safe and secure. Without security, there is no 
travel. If travelers don't feel safe, they will stay home. The 
economic benefits of travel are well-documented. Since 
submitting my written testimony, I have now received the 
numbers for 2014. Direct travel spending in the United States 
was $927 billion. That generated $2.1 trillion in economic 
output and more than $141 million in tax revenue. Travel 
directly employed 8 million Americans is and a top-10 employer 
in 49 States and the District of Columbia.
    In-bound long-haul or overseas international travel is an 
extremely lucrative segment for the United States. The Visa 
Waiver Program is the largest source of overseas visitors--20.3 
million, or 60 percent, of all overseas visitors arrived 
through the Visa Waiver Program in 2014. Last year, they 
generated $190 billion in economic output and supported nearly 
1 million good American jobs.
    Expansion of the Visa Waiver Program has yielded 
substantial economic benefit. Following the recent admissions 
of Taiwan and Chile, travel from there rose sharply. This is no 
surprise, given the staggering increase of visitors from South 
Korea since its inclusion in 2008. In 2014, a record number of 
South Korean visitors, 1.5 million, visited the United States, 
which is a 91 percent increase since they entered the program. 
They spend $5.1 billion, which is 64 percent higher than 2008, 
and supported 43,000 good American jobs. Travel is the largest 
export now from South Korea, constituting 11 percent of the 
total exports to that country.
    When countries enter the Visa Waiver Program, they add 
billions of dollars to the economy and tens of thousands of 
good American jobs. Speaking of jobs, the travel industry was 
hit hard by the economic downturn. But we are a very resilient 
industry. We helped lead the recovery by expanding employment 
36 percent faster than the rest of the economy. Largely as a 
result of the Visa Waiver Program, travel is our Nation's No. 1 
services export, generating $76 billion in 2014.
    While these economic figures are very positive, they only 
tell half the story. International travel is equally critical 
to our National security. Through travel, we foster closer 
relationships with visitors that protect us over the long term. 
Simply said, the more they know us, the more they like us. 
Beyond public diplomacy, the protocols demanded by the--
mandated by the Visa Waiver Program has significantly enhanced 
our National security, particularly since Congress amended the 
program in 2007.
    Visa Waiver partner nations, while they are strong allies, 
must still meet rigorous counterterrorism, border security, 
aviation security, and document security standards, as well as 
participate, as has just been said, in intelligence and 
information-sharing arrangements with the United States. Visa 
Waiver countries must also issue ICAO-compliant electronic 
passports to their citizens and report all lost and stolen 
passports immediately to the United States through Interpol. 
Plus, each Visa Waiver traveler must obtain permission to board 
a flight to the United States through the electronic system of 
travel authorization.
    Finally, the Visa Waiver Program provides the U.S. 
Government with the authority to regularly audit, just as my 
colleague has said. The Visa Waiver Program enables us to 
better detect, apprehend, and limit the movement of terrorists, 
criminals, and other dangerous travelers, and to shift the 
limited visa screening resources we have to higher-risk 
countries. That is why National security experts across the 
political spectrum, including every Secretary of Homeland 
Security, agree; the Visa Waiver Program is essential and an 
essential secure tool.
    While the Visa Waiver Program helps keep us safer, we 
should never stop improving it. We believe that any changes 
should first elevate security, be based on fact not hearsay, 
minimize disruption of legitimate travelers. That is why U.S. 
Travel supports H.R. 158. It would upgrade threat assessment 
and explicitly define the U.S. authority to suspend or revoke 
Visa Waiver status.
    By contrast, proposals to terminate or suspend the Visa 
Waiver Program would do incalculable harm to both the National 
and economic security. It would cause mayhem to the visa 
process that would have to take up all the slack and result in 
reciprocity against Americans who want to travel abroad. In 
fact, to improve security, we should expand the Visa Waiver 
Program, not curtail it, as representatives Joe Heck and Mike 
Quigley have proposed.
    For U.S. Travel, nothing matters more than the safety of 
our Nation and our travelers. We appreciate your holding this 
hearing to explore how the Visa Waiver Program protects our 
homeland while facilitating trade and travel and how the Visa 
Waiver Program can perform both these twin missions even 
better. Thank you.
    [The prepared statement of Mr. Dow follows:]
                   Prepared Statement of Roger J. Dow
                             March 17, 2015
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee: I am pleased to offer testimony on behalf of the U.S. 
Travel Association (U.S. Travel), the National non-profit organization 
representing all sectors of America's travel community.
    I've testified numerous times over the years on the economic impact 
of travel and tourism and the critical importance of promoting travel 
and trade. Typically I have been asked to document the significance of 
the Visa Waiver Program (VWP) to America's economic competitiveness. 
Overall, the evidence is clear: The Visa Waiver Program is essential to 
the economic security of the United States.
    Today, after briefly reviewing that evidence, I'd also like to 
focus on the travel industry's top priority: Ensuring that travelers 
are safe and secure. Without security there is no travel. If travelers 
don't feel safe, they stay home.
    The travel community supports travel policies and programs--like 
the VWP--that ensure a strong and secure Nation, supported by a 
resilient and robust economy. We also support continuous oversight of 
these programs, as the subcommittee is conducting today--and if needed, 
effective reforms, such as those proposed in H.R. 158, the Visa Waiver 
Improvement Act and in the JOLT Act.
    And if at all possible, we support changing the name of the 
program. Half of its problem is that the phrase ``visa waiver'' makes 
it sound like security is shortchanged--when the truth is that the 
program significantly enhances National security.
                      travel and economic security
    It is difficult to overstate the benefits of travel, especially 
international travel, to the economic security of the United States. In 
all 50 States, travel provides good domestic jobs that cannot be 
outsourced. In 2013, direct travel spending in the United States 
totaled $888 billion, which generated a total of $2.1 trillion in 
economic output and more than $134 billion in tax revenue. Travel also 
directly employed 7.9 million Americans and was among the top 10 
employers in 49 U.S. States and the District of Columbia. In every 
region of America, travel expenditures and the taxes they generate help 
pay the salaries of police, firefighters, and teachers without creating 
much new demand for those public services.
    The most lucrative segment of this sector is ``long-haul'' or 
overseas travel to the United States. The overseas traveler stays 
longer and spends more while here--an average of 17.5 nights and nearly 
$4,700 per trip. For every 34 overseas travelers who decide to visit 
the United States, an additional American job is created. The VWP is 
the largest source of in-bound overseas travel to the United States 
providing reciprocal 90-day, visa-free travel for citizens of the 38 
countries that currently qualify. More than 19.5 million travelers, 61 
percent of all overseas visitors to the United States, arrived in 2013 
through the VWP. While here, they generated $190 billion in economic 
output for the U.S. economy and supported nearly 1 million jobs. 
Largely as a result of the VWP, travel is our Nation's No. 1 services 
export, generating a trade surplus of $75.6 billion in 2014.
    Recent rounds of VWP expansion have demonstrated substantial 
economic benefits. Following the recent admissions of Taiwan and Chile, 
travel demand rose sharply. This is no surprise, given the example of 
the staggering increase in visitors from South Korea since its 
inclusion in VWP in late 2008. In 2013, a record 1.4 million visitors 
from South Korea arrived in the United States, growing by 79 percent 
since 2008. In 2013, South Korean visitors spent $4.5 billion while 
traveling in the United States--52 percent higher than in 2008--and 
supported 39,000 American jobs. Travel (including education/health 
care-related travel) is now the largest U.S. industry export to South 
Korea, constituting 11 percent of total U.S. exports of goods and 
services to South Korea.
    The travel industry was not spared by the economic downturn, but we 
are a resilient industry. From 2010 to the end of 2014, we have added 
833,000 jobs, restoring employment to pre-recession levels. We helped 
lead the recovery by expanding employment at a 36 percent faster pace 
than the rest of the economy. And these are jobs with significant 
opportunity for upward mobility, compounding the benefits of this surge 
in job growth over time.
    Finally, while the word ``travel'' frequently connotes tourism, 
business travel accounts for 30 percent of all travel spending. In 
2013, business travel generated an estimated $267 billion in direct 
spending--3 percent higher than the previous year. Totaling the deals 
done, products sold and opportunities created at industry conferences 
and trade shows, business travel directly supports 2.3 million American 
workers.
    In addition, at a time when Congress and the Obama administration 
are considering an important trade agenda with Europe and Asia, 
ensuring smooth movement of business travelers will ensure that visa 
barriers do not undermine the full benefits of trade liberalization. A 
study conducted in 2010 by Oxford Economics found that foreign 
exhibition and buyers spent on average, more than $36,100 each and 
$13,600 each, respectively while attending U.S. exhibitions.
                      travel and national security
    These economic figures--as positive as they are--only tell half of 
the travel story. International travel is equally critical to our 
National security. Through travel, we forge new or strengthen existing 
relationships and alliances and we foster a common understanding that 
protects our long-term interests. The most effective ambassadors of 
American values are ordinary Americans. Overseas travelers form life-
long impressions of American society based on their visits to 
destinations, large and small, across America. From our National parks 
to our ballparks to our theme parks, the heartland of our great Nation 
reflects the best of the United States to foreign visitors. The more 
they know us, the better they like us.
    Surveys have shown that foreigners who have the opportunity to 
visit the United States are 74 percent more likely to have a favorable 
view of our country; and that 61 percent are more likely to support the 
United States and its policies. Travel has demonstrated significant 
public diplomacy value as a ``soft power'' tool that complements our 
formal foreign policy mechanisms.
    By strengthening our alliances and enhancing our Nation's global 
image, travel has helped to keep us safer. Travel programs can also 
contribute directly to our National security. The VWP provides an 
excellent illustration. Since its creation in the 1980s, the Visa 
Waiver Program has evolved into an invaluable instrument of U.S. 
National security and public diplomacy. In particular, Congress re-
shaped the VWP in 2007 so that it significantly enhances U.S. 
counterterrorism efforts and strengthens international partnerships.
    VWP partner nations are, by definition, strong security allies who 
meet rigorous conditions in order to be part of the program. For 
example, VWP countries must meet strict counter-terrorism, border 
security, aviation security, and document security standards, as well 
as participate in intelligence- and information-sharing arrangements 
with the United States. VWP countries must issue International Civil 
Aviation Organization-compliant electronic passports to their citizens 
and report information on all lost and stolen passports to the United 
States through INTERPOL. In addition, each VWP traveler must also 
obtain permission to board a flight to the United States through the 
Electronic System for Travel Authorization (ESTA). Finally, the VWP 
provides the U.S. Government the ability to regularly audit these 
security requirements to ensure compliance. In short, the VWP enables 
us to better detect, apprehend, and limit the movement of terrorists, 
criminals, and other dangerous travelers--and to shift limited visa 
screening resources to higher-risk countries.
    National security experts from across the political spectrum agree 
that the VWP is a tried and tested security tool. The last three 
Secretaries of Homeland Security have praised the program's 
contribution to U.S. and international security. Former Secretary 
Chertoff recently captured this consensus stating, ``I think the Visa 
Waiver Program is a plus-plus for our National security and for our 
economic security. I think that we have constructed a program that 
makes a reduction in vulnerabilities very powerful.''
    Travel is a perception business where facts can often be distorted 
by fear and rumor. In the context of the recent terrorist attacks in 
France, a Visa Waiver Program nation, some mistakenly believe that bad 
actors could use VWP to board planes to the United States without 
thorough security checks. The travel industry is committed to educating 
stakeholders--including Congress--about the fundamental security 
rationale for the VWP. It is imperative that policymakers and the 
public understand the current security protocols within VWP and how the 
program is part of a layered approach to protect the United States and 
the traveling public.
    Along those lines, it is very important to remember that over the 
past decade, the United States has constructed a significant new 
capability to screen all travelers, whether they hold a visa, are 
traveling under the VWP, or are returning U.S. citizens, against up-to-
date watch lists. This real-time check allows law enforcement to 
utilize the most recent intelligence prior to boarding an international 
flight, and is a critical layer in securing travel, no matter how a 
traveler was originally authorized to travel to the United States.
                         the future of the vwp
    We should never stop assessing and improving the programs that 
safeguard National security. While we believe the VWP helps to keep us 
safer, U.S. Travel can support sensible reforms that further buttress 
security. In our view, any such changes should:
  <bullet> Offer elevated levels of personal and National security 
        while;
  <bullet> Focusing on areas of concern that are based on fact, not 
        merely hearsay; and
  <bullet> To the extent possible, minimizing disruption to legitimate 
        travelers.
    The proposals contained in H.R. 158 meet these criteria. The bill 
would significantly upgrade reporting on potential visitors from 
overseas, threat assessments; and explicitly define U.S. authority to 
suspend or revoke a country's VWP status. Accordingly, the travel 
industry supports this legislation--and stands ready to work with you 
to see it enacted into law.
    U.S. Travel also believes it is important for our National and 
economic security, to expand the VWP to a select group of countries. 
For precisely that reason, U.S. Travel also supports the JOLT Act, 
legislation introduced by Representatives Joe Heck and Mike Quigley 
that would add more layers of security while also giving the Secretary 
of Homeland Security greater flexibility to expand the program to 
countries that meet the appropriate security criteria.
    By contrast, proposals to terminate or suspend the VWP would do 
incalculable harm to both our National and economic security. Shutting 
down programs like the VWP that not only facilitate travel but also 
provide valuable information to our counterterrorism and law 
enforcement officials is not a formula to keeping us safe. Lastly, any 
rollback of visa waiver privileges will cause the partner country to 
reinstate visa requirements for U.S. citizens traveling abroad, to 
their inconvenience and to the detriment of international trade.
    It is the incentive to participate in the VWP that has pushed all 
38 VWP to improve their security posture. A number of countries, for 
example, have unilaterally upgraded their passports so as to be 
eligible for the VWP. Likewise, several prospective members have signed 
the information-sharing agreements and otherwise increased law 
enforcement and security-related cooperation with the United States in 
the hopes of meeting the program's requirements. These actions provide 
tangible security benefits to the United States and to the 
international traveling public.
    For U.S. Travel, nothing matters more than the safety of our Nation 
and travelers. We appreciate your holding this hearing to explore how 
the Visa Waiver Program advances the critical mission of protecting our 
homeland while also facilitating trade and travel--and how VWP could 
perform that mission even better.
    Again, thank you Chairman Miller, Ranking Member Vela, and all 
Members of the subcommittee for inviting me to testify today. I look 
forward to answering your questions.

    Mrs. Miller. Thank you very much, Mr. Dow. The Chairman now 
recognizes Dr. Bucci for his testimony.

 STATEMENT OF STEVEN P. BUCCI, DIRECTOR, THE DOUGLAS AND SARAH 
 ALLISON CENTER FOR FOREIGN AND NATIONAL SECURITY POLICY, THE 
                      HERITAGE FOUNDATION

    Mr. Bucci. Madam Chairman, Members, my name is Steven 
Bucci. I am the director of the Allison Center at Heritage. The 
views I express in this testimony are my own and should not be 
construed as representing any official position of the Heritage 
Foundation.
    I spent a majority of my life in the military. I retired as 
an Army colonel, having served as a defense attache in several 
embassies and having served as a commander in special forces 
fighting terrorism. I also served as the deputy assistant 
secretary of defense for homeland defense for several years.
    I will focus on two aspects of the VWP; the security and 
foreign policy pieces. News of European passport holders 
joining ISIS created concern about radicalized Western fighters 
abusing the program to engage in terrorism. This is a poor 
reason to scale back or end this program. The VWP promotes 
security. The ISIS threat only emphasizes the importance of its 
intel-sharing requirements.
    Currently, the nations participating are required to share 
intelligence about known or suspected terrorists, exchange 
biographic, biometric, and criminal data, share information on 
lost and stolen passports, increase airport security, and 
provide reciprocal travel without a visa.
    I have included a graphic in my written testimony. It shows 
side-by-side the ways a VWP traveler interfaces with the U.S. 
Government systems and the way a non-VWP traveler does. The 
bottom line is there are only two steps that are differences of 
note, two things that are skipped by a VWP traveler. The first 
is the face-to-face interview with Consular Services. The 
second is the pre-travel input of biometric data.
    While I am not here to criticize the fine young folks who 
work at the consular desks in our embassies, but I have been 
there in several of them. About 25 percent of those face-to-
face interviews are done by first-tour foreign service officers 
right out of training. They are not intel or law enforcement 
experts. The remaining 75 percent of the face-to-face 
interviews are done by foreign service nationals, local hires 
under the general supervision of our consular personnel.
    In the VWP, we lose that step. But in return, we get the 
enhanced information sharing with the host nation law 
enforcement and intel services and access to their databases of 
potentially dangerous persons. As a former HUMINT collector and 
Green Beret, I am pretty comfortable saying that we get a lot 
more protection and security from that info sharing than we do 
from those face-to-face interviews, an incomparably greater 
amount of protection and security.
    The second skipped step, frankly, is also a wash. We lose 
the pre-travel biometric input. But in return, as mentioned, 
all the VWP travelers have to travel with a machine-readable, 
biometrically-tagged passport, which is checked at their 
arrival point so we basically make up for that lost step. In 
short, the VWP gives us better security, not less.
    With regard to foreign policy, we have treaty allies right 
who are not allowed into the VWP because they have not reached 
the 3 percent or less visa refusal rate and DHS no longer has 
the authority to waive it up to 10 percent. This is mistake. 
Given the many benefits of the VWP, the United States should be 
examining how to increase the membership judiciously. DHS 
should be allowed to waive the 3 percent limit, and Congress 
should add a low visa overstay rate, a better metric, which 
uses the country's overstay rates as a measure of how their 
citizens respect the terms of their entry into the United 
States.
    While such permanent reform would be ideal, Congress could 
at least seek to return the waiver authority to DHS on a short-
term or one-time basis, allowing the Secretary to accept treaty 
allies such as Poland into the VWP as long as their visa 
refusal rate were below that 10 percent mark. Such an action 
would help the United States economically, improve security, 
and remind our allies, especially those like Poland that face 
an ever-more aggressive Russia, that the United States stands 
with them.
    The administration should be asked to provide the committee 
a list of countries that are in that category and whose general 
behavior and cooperation warranted for inclusion in the VWP. It 
should be done quickly and should be heralded as just what it 
is; a reward for positive behavior. But it is a reward that 
also benefits the United States greatly. Thank you.
    [The prepared statement of Mr. Bucci follows:]
                 Prepared Statement of Steven P. Bucci
                             March 17, 2015
    My name is Steven Bucci. I am director of the Douglas and Sarah 
Allison Center for Foreign and National Security Policy in The Heritage 
Foundation's Davis Institute for National Security and Foreign Policy. 
The views I express in this testimony are my own, and should not be 
construed as representing any official position of The Heritage 
Foundation.
    I have spent the majority of my life as a military officer; I 
retired from the Army as a colonel, having served as a defense attache, 
a human intelligence collector working in embassies for Defense 
Intelligence Agency (DIA), and as a Special Forces operator and 
commander of the 3d Battalion, 5th Special Forces Group, fighting 
terrorism. I also served as the deputy assistant secretary of defense 
for homeland defense, DOD's representative to the Interagency for 
Counter Terrorism domestically.
                      vwp and the threat of terror
    The Visa Waiver Program (VWP) is a valuable tool supporting U.S. 
tourism and trade, public diplomacy, and National security. The VWP 
allows residents of member countries to visit the United States without 
a visa for up to 90 days in exchange for security-cooperation and 
information-sharing arrangements and reciprocal travel privileges for 
U.S. residents.
    News of European passport holders joining the Islamic State in Iraq 
and al Sham (ISIS), however, have created concerns about radicalized 
Western fighters abusing the VWP to engage in terrorism here in the 
United States. These concerns, however, are not a good reason to end 
the VWP. The VWP promotes security and the ISIS threat only emphasizes 
the importance of the VWP's intelligence-sharing requirements and 
adding appropriate nations to the program.
                        vwp basics and benefits
    In order to become a VWP member, a country must:
  <bullet> Demonstrate a non-immigrant-visa refusal rate (the 
        percentage of visa applicants denied by the State Department 
        for a particular nation) of no more than 3 percent;
  <bullet> Issue all its residents secure, machine-readable biometric 
        passports; and
  <bullet> Present no discernable threat to U.S. law enforcement or 
        U.S. National security.
    Currently, 38 nations are participating in the VWP.\1\ As required 
by the VWP and certain laws, these nations have also agreed to various 
stipulations and obligations, including requirements to:
---------------------------------------------------------------------------
    \1\ U.S. Department of State, Bureau of Consular Affairs, ``U.S. 
Visas: Visa Waiver Program,'' http://travel.state.gov/content/visas/
english/visit/visa-waiver-program.html (accessed March 12, 2015).
---------------------------------------------------------------------------
  <bullet> Share intelligence about known or suspected terrorists with 
        the United States (per Homeland Security Presidential Directive 
        6 (HSPD-6));
  <bullet> Exchange biographic, biometric, and criminal data with the 
        United States (automated, via Preventing and Combating Serious 
        Crime (PCSC) agreements);
  <bullet> Share information on lost and stolen passports (LASP 
        agreements);
  <bullet> Increase their own airport security requirements; and
  <bullet> Provide U.S. citizens with a reciprocal ability to travel to 
        that country without a visa.\2\
---------------------------------------------------------------------------
    \2\ Alison Siskin, ``Visa Waiver Program,'' Congressional Research 
Service Report for Congress, February 12, 2014, http://fas.org/sgp/crs/
homesec/RL32221.pdf (accessed March 12, 2015).
---------------------------------------------------------------------------
    These features greatly enhance security by providing U.S. law 
enforcement and security agencies with more information and 
intelligence on potential terrorists and other bad actors. The VWP 
makes it easier for U.S. officials to know whether an individual 
presents a security threat. The VWP also allows the State Department to 
focus its consular and visa resources on those countries and 
individuals about which less is known and are higher risks to U.S. 
security.
    Furthermore, the VWP includes robust screening and security 
procedures. Every traveler to the United States from a VWP country must 
be pre-screened through the Electronic System for Travel Authorization 
(ESTA). ESTA data is then checked against multiple databases including 
Custom and Border Protection's (CBP) Automating Targeting System (ATS) 
and TECS system. The ATS is run by the National Targeting Center and 
checks a variety of databases including the Terrorist Screening 
Database (TSDB) and Interpol's data on lost and stolen passports. The 
ATS gives each individual a risk-based score that determines whether or 
not the individual should receive additional scrutiny or inspection. 
TECS queries various databases for information about the person's 
eligibility for travel to the United States and whether he or she is a 
known security risk.\3\ TECS also checks against the TSDB, which is 
maintained by the FBI for law enforcement use in apprehending or 
stopping known or suspected terrorists.\4\
---------------------------------------------------------------------------
    \3\ Lisa Seghetti, ``Border Security: Immigration Inspections at 
Ports of Entry,'' Congressional Research Service Report for Congress, 
January 26, 2015, pp. 9-10, http://fas.org/sgp/crs/homesec/R43356.pdf 
(accessed March 12, 2015).
    \4\ Timothy J. Healy, ``Statement Before the House Judiciary 
Committee,'' Federal Bureau of Investigation, March 24, 2010, http://
www.fbi.gov/news/testimony/sharing-and-analyzing-information-to-
prevent-terrorism (accessed March 12, 2015).
---------------------------------------------------------------------------
    Additionally, when individuals buy their tickets, that information 
is forwarded from the airlines to the Department of Homeland Security 
(DHS) and checked through multiple systems. The Transportation Security 
Administration's Secure Flight program collects passenger data and 
compares it against the TSDB's No-Fly and Selectee lists. CBP's Advance 
Passenger Information System (APIS) collects the Passenger Name Record 
and other information about travelers and forwards the information to 
the Arrival and Departure Information System (ADIS) to help combat visa 
overstays, and also to the National Targeting Center and the ATS to 
detect high-risk travelers.\5\
---------------------------------------------------------------------------
    \5\ Seghetti, ``Border Security: Immigration Inspections at Ports 
of Entry.'' 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Upon landing in the United States, individuals must provide 
biographic and biometric information that is checked against additional 
sets of biometric databases controlled by DHS (Automated Biometric 
Identification System or IDENT) and the FBI (Integrated Automated 
Fingerprint Identification System or IAFIS). The individual is once 
again checked through TECS, the ATS, and the APIS and undergoes 
additional inspection if necessary. At any point in this process, 
security officials can prevent an individual from entering the United 
States if they are deemed a security risk or ineligible for travel to 
the United States. While no system is without flaws, this is a robust 
screening process.\6\
---------------------------------------------------------------------------
    \6\ Ibid., pp. 10-11.
---------------------------------------------------------------------------
    The main differences between this screening process and the 
traditional visa screening process are that a traditional visa 
applicant must have an in-person interview at a U.S. consulate and 
provide biometric data prior to obtaining a visa. This allows biometric 
checks to occur prior to travel. The traditional visa process, however, 
does not have the same information-sharing arrangements that are 
required to be a part of the VWP that provide the United States with 
data on known and suspected terrorists and serious criminals.
    Since the VWP was created in 1986, tourism and related expenditures 
in the United States have dramatically increased. From 2000 to 2013, 
the number of visitors to the United States increased by 18.6 million, 
a 36 percent increase, to a record number of 69.8 million, with 
approximately 40 percent of all visitors entering the United States 
through the VWP.\7\ As a result, the VWP has helped the United States 
maintain a trade surplus in tourism since 1989, with visitors spending 
$180.7 billion in 2013, supporting the travel and tourism industries 
that constitute 2.8 percent of U.S. gross domestic product, including 8 
million jobs, as well as many other sectors of the U.S. economy, such 
as restaurant and consumer-good businesses.\8\
---------------------------------------------------------------------------
    \7\ Siskin, ``Visa Waiver Program,'' and U.S. Department of 
Commerce, Office of Travel and Tourism Industries, ``International 
Arrivals to U.S. by Region and Country of Residency: Historical 
Visitation 2000-2006,'' http://travel.trade.gov/outreachpages/
download_data_table/Historical_arrivals_2000_2006.pdf (accessed March 
12, 2015).
    \8\ International Trade Administration, National Travel and Tourism 
Office, ``Fast Facts: United States Travel and Tourism Industry 2013,'' 
http://travel.trade.gov/outreachpages/download_data_table/
Fast_Facts_2013.pdf (accessed March, 2015).
---------------------------------------------------------------------------
    The VWP is also an important tool of foreign policy and public 
diplomacy. Allowing individuals to visit the United States and enjoy 
our country can improve the foreign public's understanding and 
appreciation for America and our culture. By extending the privilege of 
the VWP to other nations, we deepen diplomatic ties with friendly 
governments and allies, as well. A graphic depiction of these processes 
is attached to this submission, showing a side-by-side comparison of 
the interaction of a VWP traveler and a non-VWP traditional traveler 
with the various parts of the U.S. systems.
                       improvement and expansion
    While the VWP boosts security, diplomacy, trade, and tourism, there 
are areas for improvement, including information-sharing arrangements 
and metrics for visa overstays.
    As mentioned, VWP participants must enter into various information-
sharing arrangements with the United States, as mandated by the 9/11 
Commission Act of 2007. In 2012, the U.S. Government Accountability 
Office's (GAO's) Acting Director of Homeland Security and Justice 
Rebecca Gambler testified that many nations had not finalized these 
agreements or begun sharing information. According to GAO data as of 
January 2011, only 19 of the 36 VWP nations had agreed to share 
terrorist-watch-list information and only 13 were actually sharing 
information. Worse yet, only 18 of 36 nations had agreed to share PCSC 
crime information, and no information-sharing arrangements were fully 
automated as required.\9\
---------------------------------------------------------------------------
    \9\ Rebecca Gambler, ``Visa Waiver Program: Additional Actions 
Needed to Mitigate Risks and Strengthen Overstay Enforcement,'' 
Government Accountability Office, GAO-12-599T, March 27, 2012, http://
www.gao.gov/assets/590/589621.pdf (accessed March 12, 2015), and 
Jessica Zuckerman, ``The Visa Waiver Program: Time for Nations to Bear 
the Consequences of Non-Compliance,'' Heritage Foundation Issue Brief 
No. 3565, April 12, 2012, http://www.heritage.org/research/reports/
2012/04/visawaiver-program-consequences-of-non-compliance.
---------------------------------------------------------------------------
    Since then, however, action on information sharing has dramatically 
improved: The Congressional Research Service reported that nearly all 
VWP members had agreed to share information as of February 2014,\10\ 
and, according to a DHS legislative affairs official, as of September 
2014 all nations are now sharing information on terrorists, serious 
criminals, and lost or stolen passports. DHS is, however, still working 
to automate PCSC data sharing for all VWP participants.\11\ Congress 
should ensure that progress on these agreements continues.
---------------------------------------------------------------------------
    \10\ Siskin, ``Visa Waiver Program.''
    \11\ Gambler, ``Visa Waiver Program,'' and phone conversation 
between David Inserra and DHS official, DHS Office of Legislative 
Affairs, September 10, 2014.
---------------------------------------------------------------------------
    Given the many benefits of the VWP, the United States should also 
examine how to increase VWP membership judiciously. The requirement for 
a biometric visa-exit system, which is not a cost-effective tool for 
stopping terrorism or illegal immigration, currently stands in the way 
of most nations joining the VWP.\12\ DHS should be allowed to waive the 
3 percent limit on non-immigrant visa-refusal rates, and Congress 
should add a requirement for low visa-overstay rates instead. The visa-
refusal metric is susceptible to subjective decisions by different visa 
consular officers in different countries that can affect the number of 
visas refused and granted. A better metric would be to use countries' 
visa-overstay rates as a measure of how a country's citizens respect 
the terms of their entry into, and time in, the United States. While 
such reform would be ideal and more permanent, Congress could also seek 
to return waiver authority to the DHS Secretary on a short-term basis, 
allowing the Secretary to accept treaty allies such as Poland into the 
VWP, so long as their visa-refusal rate was less than 10 percent. Such 
action would help the United States economically, improve security and 
screening of individuals coming to the United States, and would remind 
our allies, especially those like Poland that face an increasingly 
aggressive Russia, that the United States stands by them.
---------------------------------------------------------------------------
    \12\ Steven P. Bucci and David Inserra, ``Biometric Exit 
Improvement Act: Wrong Solution to Broken Visa and Immigration 
System,'' Heritage Foundation Issue Brief No. 4064, October 8, 2013, 
http://www.heritage.org/research/reports/2013/10/biometric-exit-
improvement-act-and-the-broken-visa-and-immigration-system, and Jessica 
Zuckerman, ``Taiwan Admitted to the Visa Waiver Program,'' Heritage 
Foundation Issue Brief No. 3747, October 3, 2012, http://
www.heritage.org/research/reports/2012/10/taiwan-admitted-to-the-visa-
waiver-program.
---------------------------------------------------------------------------
    Additional measures, to strengthen the ESTA application or to 
provide DHS with reasonable tools to ensure member countries are 
abiding by their agreements, could also be worthwhile reforms. 
Countries that do not meet the terms of the VWP should face 
consequences, but full expulsion from the program should not be used 
lightly.
                               conclusion
    With many benefits, the VWP is more valuable than ever. The threat 
of ISIS and radicalized Westerners is real and the United States should 
be using all the intelligence tools at its disposal to find and stop 
these terrorists. The VWP is one of those tools, and to stop it now 
would make the United States less secure, less prosperous, and less 
engaged with friends and allies. Instead, we should be looking to 
improve and expand the program.

    Mrs. Miller. Thank you very much, Doctor.
    The Chairman now recognizes Mr. Jenkins.

STATEMENT OF BRIAN MICHAEL JENKINS, SENIOR ADVISER TO THE RAND 
                PRESIDENT, THE RAND CORPORATION

    Mr. Jenkins. Chairman Miller, Ranking Member Vela, and 
distinguished Members of the committee, thank you very much for 
the opportunity to address this important subject.
    The testimony I have already submitted addresses two 
fundamental questions. One is the threat posed by Western 
fighters who have joined Jihadist fronts in Syria and Iran. No. 
2, how can the United States enhance its ability to identify 
and intercept returning foreign fighters with passports from 
countries currently covered by the Visa Waiver Program?
    You know, one of the advantages of going fourth here is 
that you can revise your order of remarks along the way. What I 
am about to do is just toss my oral remarks completely. Let me 
just underscore a few points that have already being touched 
upon.
    First of all, the threat. This is serious. The continuing 
civil war in Syria, ISIL's military victories, and its claimed 
re-creation of the caliphate has created a great deal of 
excitement and has attracted foreign fighters from around the 
world. The numbers are constantly on the move. But we are 
looking at in excess of 20,000 foreign fighters who have now 
gone to Syria. Most of these are from Arab countries, but more 
than 3,000 are from Western countries, primarily Europe.
    The bombing campaign by the coalition does not appear to 
have stopped this flow yet. In fact, just last week the Prime 
Minister of France said that they could expect 10,000 European 
fighters in Syria and Iraq by the end of this year. That is--
now, this is a dangerous bunch. I mean, ISIL recruits people 
who are not simply--not only not repelled by images of 
beheadings and burning people alive and crucifixions and mass 
executions, that is its recruiting poster. It is gathering, 
assembling people who are looking for opportunities to 
participate in that.
    Its al-Qaeda counterpart remains dedicated to attacking the 
far enemy; that is us. Right now, ISIL is not so concerned with 
launching attacks abroad. But under pressure, that strategy 
could change. If ISIL is defeated, then we could see the 
proliferation of small groups on the run bent upon revenge. So 
the threat is serious.
    Visa Waiver Program. Look, our allies here understand they 
have got a major problem in Europe. The recent terrorist 
attacks underscore that. So they are taking a number of steps 
now to improve intelligence, to increase their criminal 
penalties. This allows us some real opportunities to work with 
them. One of the things that they are doing, for example, is 
adding elements to the PNR. We can use that information if it 
is shared with us in conjunction with the information that we 
get through ESTA in order to create new kinds of profiles that 
will identify these people coming in.
    We are gonna have to shift our thinking here. The problem 
was overstay. The issue now is intercept. So the challenge for 
us is how we can take things like ESTA, PNR data, intelligence 
data, prescreening processes which are being extended abroad, 
as well as arrival procedures by customs and immigration 
officials, and knit them together into a National strategy.
    So the point is this isn't just about Visa Waiver. Visa 
Waiver is a component of a larger necessary effort which is 
gonna have to go on for a long time because we are going to be 
dealing with the effluent of the fighting in Syria and Iraq for 
the foreseeable future. Thank you.
    [The prepared statement of Mr. Jenkins follows:]
            Prepared Statement of Brian Michael Jenkins \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
                             March 17, 2015
 containing middle east terror measures to reduce the threat posed by 
           foreign fighters returning from syria and iraq \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT427.html.
---------------------------------------------------------------------------
    Chairman Miller, Ranking Member Vela, distinguished Members of the 
subcommittee, I would like to thank you for the opportunity to address 
this important subject.
    My testimony will address two fundamental questions:
    (1) What is the threat posed by Western fighters who have joined 
        jihadist fronts in Syria and Iraq?
    (2) How can the United States enhance its ability to identify and 
        intercept returning foreign fighters with passports from 
        European and other countries that are currently covered by the 
        Visa Waiver Program?
    Let's begin with the threat.
    Over the past 8 months, my colleagues at RAND have had several 
opportunities to offer Congressional committees their assessments of 
the evolving threat posed by jihadist groups in the Middle East and 
North Africa.\3\ While the focus of my colleagues and their 
interpretations of the evolving threat vary, I regard my own testimony 
to be the latest installment this continuing body of work.\4\
---------------------------------------------------------------------------
    \3\ See Seth Jones, Jihadist Sanctuaries in Syria and Iraq: 
Implications for the United States, testimony presented before the 
House Homeland Security Committee, Subcommittee on Counterterrorism and 
Intelligence on July 24, 2014; Ben Connable, Defeating the Islamic 
State in Iraq, testimony presented before the Senate Foreign Relations 
Committee on September 17, 2014; and Rick Brennan Jr., The Growing 
Strategic Threat of Radical Islamist Ideology, testimony presented 
before the House Foreign Affairs Committee on February 12, 2015.
    \4\ This testimony also builds on my recent previous research, as 
reported in The Dynamics of Syria's Civil War, Santa Monica, Calif.: 
RAND Corporation, 2014; Brothers Killing Brothers: The Current 
Infighting Will Test al Qaeda's Brand, Santa Monica, Calif.: RAND 
Corporation, 2014; and When Jihadis Come Marching Home: The Terrorist 
Threat Posed by Westerners Returning from Syria and Iraq, Santa Monica, 
Calif.: RAND Corporation, 2014.
---------------------------------------------------------------------------
    Syria's civil war, Assad's brutal repression, the spread of 
jihadist ideology, the growing sectarianism of the conflict in Syria 
and Iraq, the military victories achieved by the Islamic State of Iraq 
and the Levant (ISIL), and, perhaps above all, ISIL's announced re-
creation of the Caliphate have galvanized would-be jihadist warriors 
throughout the world.
    According to the latest reported intelligence estimate, 20,000 
foreign fighters have traveled from other countries to join the fight 
in Syria and Iraq.\5\ Most are believed to have joined ISIL. 
``Estimate'' is the operative word here, but if the number is close to 
correct, this would mean that foreign fighters now comprise a large 
portion of ISIL's total strength--estimated to be as many as 31,000 
fighters--and enough to influence its trajectory. Most of the 
volunteers come from other Arab countries, but the National 
Counterterrorism Center (NCTC) has estimated 3,400 have come from 
Europe and other Western countries and are therefore theoretically 
eligible to enter the United States without a visa. Most of these 
Western volunteers are believed to have joined ISIL, which now calls 
itself the Islamic State.
---------------------------------------------------------------------------
    \5\ Nicholas J. Rasmussen, Director of the National 
Counterterrorism Center, Current Terrorist Threat to the United States, 
testimony before the Senate Select Committee on Intelligence, February 
12, 2015.
---------------------------------------------------------------------------
    The coalition bombing campaign--which was intended to: (1) Contain 
ISIL by supporting partners on the ground, such as the Kurdish 
Peshmerga, who are reclaiming territory lost earlier to ISIL; (2) 
prevent ISIL from being able to move freely in Syria and Iraq; (3) 
disrupt and degrade its command and control; (4) reduce its logistical 
capabilities; and (5) target key leaders where possible--has taken a 
toll on ISIL's operational capabilities. But it does not appear to have 
significantly reduced the flow of Western fighters to Syria and Iraq: 
The reported numbers have continued to increase since the bombing 
campaign began in September 2014. In part, the growing numbers may 
reflect a time lag as authorities learn about those who departed before 
the bombing campaign began. However, there is evidence that the flow of 
recruits continues. France's prime minister recently forecast that by 
the end of this year, as many as 10,000 Europeans may join the jihadist 
front in Syria and Iraq.
             isil's recruiting attracts the violence-prone
    ISIL operates a sophisticated recruiting program, which includes 
its highly-publicized victories and its equally well-recorded 
atrocities. Its message is disseminated through its official outlets on 
the internet and reinforced by a distributed recruiting campaign by its 
own members using social media. ISIL appeals to potential recruits' 
sense of religious duty--faith undeniably plays a role in recruitment, 
even though volunteers may not possess a profound knowledge of Islam. 
Like all true believers, recruits may be attracted by a simple black-
and-white, us-versus-them belief system. Poverty and oppression may 
explain why people in some countries embrace violent extremism, but it 
does not explain the flow of Western volunteers. Individual biographies 
of those who have gone to participate in jihad or have attempted to go 
suggest a variety of personal motives--alienation, perceived insults, 
personal crises, dissatisfaction with empty spiritual lives, adolescent 
rebellion, or other discontentment.
    ISIL is a dangerous group. It distinguishes itself from other 
jihadist groups by continuing to publicize its limitless violence. This 
attracts a self-selecting assembly of individuals who are not repelled 
by graphic images of mass executions, beheadings, crucifixions, and 
burnings and who indeed may be attracted by opportunities to 
participate in such atrocities. They exult in violence. Gathering as a 
group in Syria and Iraq, they may reinforce each other's savagery, 
creating a constituency within ISIL that supports escalating violence.
    This dynamic is present in most terrorist groups. For the 
ideologues who initiate terrorist campaigns, violence is instrumental--
a means to achieve an end. Violent campaigns attract others who 
subscribe to the ideology but actually seek membership in a terrorist 
group as a source of status. For a third cohort, the prospect of 
violence is the principal attraction--ideology offers a license to 
kill.
    Over time, the harder members of a group dominate decision making. 
Their argument is always the same--if the group is not doing well, it 
must become more ruthless. If the group is doing well, escalation will 
accelerate progress. Hardliners cannot easily be reined in, even if the 
leaders want to restrain them. Commanders who counsel moderation risk 
being branded as traitors and eliminated, or hardliners may break off 
to form their own groups. This is not to say that we have any evidence 
at all of attempts by ISIL's leaders to moderate the group's 
activities; instead, they appear to encourage barbarity. Still, there 
must be some tension between those who want to build a state and those 
whose increasing barbarity makes them appear determined to trigger its 
destruction.
    Transgression demonstrates conviction and binds the perpetrator to 
the cause. ISIL seems determined to separate its fighters from normal 
society. There are reports that the group forces recruits to commit 
atrocities to ensure their loyalty and reduce chances that they can 
ever return home.
    The accumulation of atrocity increasingly precludes any resolution 
other than continuing warfare or death. For the group as well as for 
the individual, having crossed the line into nihilism, there is no way 
back.
  isil's calculated ruthlessness--strategic calculation or collective 
                                madness?
    To the outside world, ISIL's escalating murder and destruction is 
incomprehensible. Rational explanations are required.
    We invent strategic calculations (or miscalculations) that make 
mayhem logical. Analysts posit that ISIL's leaders intend its 
atrocities to provoke the rage that draws in foreign ground forces, 
where casualties and captures will erode resolve and impose a time 
limit on foreign military achievement, will incite responses that 
divide the coalition, or will precipitate action before ISIL's foes are 
fully prepared to take it on.
    Continuing warfare changes the individual outlooks of those 
involved. Armed conflict can brutalize its participants. Violence, not 
just on the battlefield but in executions, torture, and mistreatment of 
prisoners, hostages, and the civilian population, becomes matter-of-
fact. Atrocities become routine. This has effects on the mental 
condition of both the individual and the collective. A gathering of 
violent zealots can lead to collective madness in which sadistic 
cruelty becomes an end in itself, requiring no strategic explanation.
    It may be unpleasant to contemplate, but we cannot dismiss the 
power of belief. ISIL has attracted the most fervent disciples to an 
extreme (many would say discredited) version of Islam, recruits who 
believe in the imposition of the cruelest form of Islamic law without 
compromise. This belief system may include apocalyptic thinking; the 
idea that escalating violence will hasten the final confrontation 
between true believers and the forces of evil. There is a fierce debate 
over whether ISIL represents or perverts Islam, but the fact that 
ISIL's theological pretensions are widely rejected by Muslim clerics, 
both militant and centrist, is not the point here. Polling data and a 
continuing flow of recruits from Europe indicate that ISIL's 
religiously justified violence resonates with some.
    There will be Caligulas. To possess unchallenged power over other 
human beings, beyond the reach of retribution, immune from any 
restraining moral authority, allows license and cruelty.
    Through its strategy of terror, exaltation of violence as a 
recruiting theme, attraction to and assembly of the most fervent and 
most ruthless followers, and deliberate rejection of any constraints, 
ISIL is creating a dangerous population that cannot be easily pacified 
or reabsorbed into normal life.
                there are scenarios of immediate concern
    A long-term terrorist threat that survives the destruction of ISIL 
warrants our attention, but there also are several scenarios of 
immediate concern. These include the following:
  <bullet> A 9/11-like scenario in which foreign volunteers on their 
        way to the front lines in Syria or Iraq are instead recruited 
        and supported to carry out a major terrorist strike in the 
        United States. This is the 9/11 scenario, where the attackers 
        were on their way to an active combat zone when they were 
        instead diverted to a terrorist mission. It seems unlikely that 
        in today's more vigilant environment, terrorists could mount an 
        operation of that scale without being detected.
  <bullet> A shoe-bomber or underwear bomber scenario in which a single 
        volunteer is recruited and equipped for a suicide mission. 
        There were reports in 2014 of such plotting by al-Qaeda's 
        Khorasan cell, a group of veterans sent from Afghanistan to 
        Syria to recruit and deploy fighters with Western passports.
  <bullet> 7/7 scenarios, named after the 2005 bombing of public 
        transport in London, in which Westerners are provided with 
        specialized training and dispatched to the West without further 
        support.
  <bullet> Low-level attacks carried out based on individual 
        initiative. These could involve returning foreign fighters or 
        home-grown terrorists responding to calls by ISIL or al-Qaeda's 
        affiliates to carry out attacks. These might include active-
        shooter attacks and hostage situations as we have seen in 
        Ottawa, Paris, Sydney, and Copenhagen.
   isil is not yet committed to attacking western foes on their own 
        territory, but its containment could change its strategy
    There is no indication yet that ISIL has initiated a terrorist 
campaign aimed at directly attacking its Western foes on their own 
territory. It has taunted and threatened the West in widely-
disseminated videos showing gruesome murders of Western nationals. It 
has called upon its supporters abroad to carry out similar acts of 
terrorism and has praised those who have done so.
    However, unlike al-Qaeda, which continues to follow a strategy of 
attacking the ``far enemy,'' ISIL appears more focused on the expansion 
and defense of the territory it controls as the Islamic State. This 
reflects necessity. With an economy based on plunder and an army of 
fanatics, it is doubtful that the Islamic State could survive as a 
normal state within static borders even if its enemies were to allow it 
to try. It must continue to expand or it will consume itself.
    Squeezed by ground offensives supported by foreign airpower, ISIL 
may at some point alter its strategy and carry out attacks abroad in an 
effort to break the coalition's political resolve. If ISIL does decide 
to launch attacks abroad, it will be able to draw upon its substantial 
financial resources and a deep bench of Western volunteers from among 
its existing fighters.
    The defeat of the Islamic State could turn into a scenario of 
slaughter, as victims of its cruel occupation and even its one-time 
Sunni allies turn against it if only to preempt Shi'a retribution. But 
its destruction could also shatter the enterprise into a host of small, 
desperate groups, on the run, bent upon revenge.
    If the Islamic State is brought down, where will its foreign 
fighters go? Facing a hostile reception if they had returned home, 
foreign volunteers who went to Afghanistan to fight Soviet invaders in 
the 1980s gathered under al-Qaeda's banner. Some ISIL veterans will 
migrate to other fronts in Afghanistan, where ISIL has already set up 
shop; to the Caucasus, from which a large number of its foreign 
fighters, including a number of its commanders, come; or to Libya, 
where ISIL has found new allies. Some Western volunteers, disillusioned 
by their experience and with nowhere else to go, will simply want to 
come home. Others will direct their wrath toward the West.
    Most face arrest if they return to their home countries, although 
European countries are divided on how to deal with returning fighters. 
Instead of prison, some countries want to offer rehabilitation and 
reintegration into society, at least to some returnees. It will likely 
be hard to determine the degree of individual participation in 
atrocities. Given ISIL's record, ``re-humanization'' may be a 
prerequisite to rehabilitation. Clearly, there are some advantages to 
offering a way back if it requires an open declaration of return and 
willingness to cooperate with authorities.
    But rehabilitation programs have had mixed results, and resources 
for surveillance are already stretched by the number of people going to 
or returning from jihadist fronts. Authorities may not have the 
resources needed to effectively monitor significant numbers of 
individuals at large. This clearly was France's problem in dealing with 
the rapid rise in the number of persons going to Syria or contemplating 
going there. And jihadists have shown remarkable persistence, which 
means they may have to be monitored in some fashion for years.
    I think it is safe to assume that foreign fighters from other 
countries seeking to enter the United States are more likely to have 
malevolent intentions than returning Americans. Their capabilities for 
putting together large-scale terrorist operations here may be limited, 
but not their intentions. ISIL's fighters have set a new benchmark for 
brutality. They have rejected all arguments to curb their enthusiasm 
for bloodshed, whether from Islamic theologians or even al-Qaeda's own 
leaders.
                        the american experience
    Although the numbers continue to grow, the number of individuals 
from the United States going to jihadist fronts is, fortunately, not 
anywhere near the number that have gone from Europe. The most recent 
estimate puts the total of American volunteers at 150, including those 
who went for reasons related to the conflict in Syria but not to join 
jihadist fronts, those who attempted to go and were arrested on the 
way, and those who have gone and been killed while fighting for ISIL or 
other jihadist groups.
    The historical experience of Americans going to other jihadist 
fronts (in Afghanistan, Pakistan, Somalia, and Yemen) indicates that, 
of 124 publicly-identified Americans who went or tried to go abroad to 
join such fronts between 9/11 and the end of 2014, approximately one-
third were arrested on the way. Of those who managed to connect with 
jihadist groups abroad, 24 were killed (six in suicide bombings), 13 
were arrested while abroad, and 13 more are still at large. Of the 35 
who returned, 9 were involved in subsequent terrorist plots. Only 3 
home-grown jihadist attacks in the United States resulted in 
fatalities. These were carried out by individuals who are not known to 
have received any terrorist training abroad.\6\ (These figures 
represent only the publicly-identified would-be jihadists; they do not 
include the total number of those who reportedly traveled to Syria or 
Iraq.)
---------------------------------------------------------------------------
    \6\ Jenkins, When Jihadis Come Marching Home.
---------------------------------------------------------------------------
    Returning American fighters add a layer of threat, but--given their 
still-modest numbers--it is a threat that I believe is manageable 
within existing laws and resources. More-effective leveraging of local 
police can provide needed reinforcements.\7\ As our focus here is on 
the Visa Waiver Program (VWP), returning Americans are a separate 
problem. Nevertheless, dealing with that problem should be viewed as 
part of an overall strategy.
---------------------------------------------------------------------------
    \7\ Brian Michael Jenkins, Andrew Liepman, and Henry H. Willis, 
Identifying Enemies Among Us: Evolving Terrorist Threats and the 
Continuing Challenges of Domestic Intelligence Collection and 
Information Sharing, Santa Monica, Calif.: RAND Corporation, 2014. See 
also Business Executives for National Security, Domestic Security: 
Confronting a Changing Threat to Ensure Public Safety and Civil 
Liberties, Washington, DC, 2015.
---------------------------------------------------------------------------
                there are several u.s. lines of defense
    There are several potential lines of defense, each of which offers 
opportunities to identify and intercept foreign fighters before they 
are able to carry out acts of terrorism in the United States.

    1. The first line of defense consists of all international efforts 
        to reduce the number of volunteers going to jihadist fronts. 
        While such efforts depend nearly entirely on foreign actions, 
        the United States can nonetheless encourage and support them.

    2. The United States could push for broader international efforts 
        to intercept returning fighters, primarily efforts by Turkey 
        and the European Union--especially front-line countries, such 
        as Bulgaria and Greece, whose land borders returning fighters 
        may try to cross. However, foreign fighters may deliberately 
        take roundabout routes to evade detection. Right now, Turkey, 
        as the entry and exit point for virtually all foreign fighters, 
        is key to stemming the flow.

    3. Intelligence sources may identify groups engaged in planning 
        terrorist attacks against the West and disrupt their activities 
        or specific plots while the would-be attackers are still 
        abroad. The U.S. bombing of suspected Khorasan cells in Syria 
        is an example of such an effort.

    4. The Terrorist Identities Datamart Environment (TIDE), No-Fly 
        List, and other databases derived from intelligence sources are 
        currently the primary mechanism for identifying returning 
        foreign fighters. The question is how much they could be 
        improved by better sharing arrangements with foreign partners 
        in VWP countries.
    Intelligence-sharing arrangements are complicated and beyond the 
        scope of my testimony. An agreement is in place that allows 
        E.U. countries to share Passenger Name Record (PNR) information 
        with the United States. In the wake of the recent terrorist 
        attacks in Paris, E.U. interior ministers have proposed a 
        Europe-wide plan that would require passengers to provide 
        additional information, which would remain available to 
        terrorism-related investigations for up to 5 years. The 
        collection and sharing of additional data would provide 
        additional confidence that authorities in the European Union 
        and the United States will be able to accurately identify 
        returning fighters. There is, however, strong opposition from 
        civil libertarians. Meanwhile, 14 E.U. countries are setting 
        their own PNR protocols.
    America's VWP partners clearly share our interests and will look 
        for ways to enhance their own security at the same time. In the 
        wake of recent terrorist attacks, European countries have taken 
        steps to reduce radicalization, improve intelligence, increase 
        criminal penalties, impose administrative measures to prevent 
        travel, and enhance information collection and sharing.

    5. The Electronic System for Travel Authorization (ESTA) is now in 
        place and has recently been enhanced. It offers the rough 
        equivalent of a visa application, and information obtained 
        through ESTA is checked against the terrorism databases, which 
        are managed by the National Counterterrorism Center (NCTC). 
        Matches have been found, preventing potential terrorists from 
        entering the United States. How could ESTA be further enhanced?

    6. Pre-boarding passenger screening offers a number of 
        possibilities. Computer-Assisted Passenger Pre-Screening 
        (CAPPS) was a program implemented on the recommendation of the 
        White House Commission on Aviation Safety and Security in 1997. 
        Using PNR information, CAPPS reportedly identified 9 of the 19 
        hijackers on 9/11, although by that time the system had been 
        effectively disconnected from the security checkpoint. CAPPS 
        II, an improved version, was abandoned as unworkable. It was 
        replaced by Secure Flight, which relies primarily on matching 
        names with current watch lists.
    Israel has historically relied heavily on pre-boarding interviews 
        to screen passengers. The approach, however, is labor-intensive 
        and is more difficult to apply to passenger loads more diverse 
        than those flying on El Al, although in 2001, ICTS, a private 
        security company contracted to interview passengers on U.S.-
        bound flights using the Israeli approach, correctly identified 
        Richard Reid, the Shoe Bomber, as a person warranting further 
        questioning.
    The Transportation Security Administration (TSA) has spent nearly a 
        billion dollars to train and deploy behavioral-detection 
        officers in an effort to identify high-risk passengers, but the 
        approach remains controversial. Many regard behavioral 
        detection as bogus science, although it may have value as a 
        deterrent. The criticism that behavioral techniques have not 
        led to the apprehension of any terrorists is misleading. In 
        fact, none of the security measures in effect at U.S. airports 
        have led to the apprehension of any terrorists here, and 
        insofar as I can recall, only one terrorist was actually 
        intercepted at a checkpoint abroad. A number of new 
        technologies based on detecting subtle physiological responses 
        to questions or images are in development. We still have no 
        ``X-ray'' for a person's soul.
    Screening programs like TSA's Automated Targeting System (ATS) aim 
        at flagging those who may pose a higher risk. An alternate 
        strategy is to identify populations of passengers unlikely to 
        pose any risk, thereby allowing security officials to more 
        efficiently focus their efforts. An example is TSA's Pre-Check 
        program for trusted frequent fliers. It may be possible for 
        U.S. officials to develop algorithms aimed at identifying 
        travelers entering the United States under the VWP who 
        similarly are likely to pose little risk. The NCTC now works 
        with the State Department and Customs and Border Protection 
        (CBP) to establish screening rules that narrow the screeners' 
        field of view so that they can concentrate on those they should 
        be most worried about.

    7. Pre-clearance procedures are being extended to a number of 
        foreign airports. These allow passengers to complete 
        immigration and customs formalities before boarding, but they 
        also provide opportunities for interviews and behavioral 
        observation.

    8. Arrival screening and secondary interviews by U.S. Immigration 
        and Customs Enforcement (ICE) and CBP offer the final line of 
        defense before entry into the United States. It has already 
        been recommended by a number of intelligence practitioners and 
        experts that both agencies expand and enhance their 
        intelligence capabilities.\8\
---------------------------------------------------------------------------
    \8\ Jenkins, Liepman, and Willis, Identifying the Enemies Among Us; 
and Business Executives for National Security, Domestic Security: 
Confronting a Changing Threat to Ensure Public Safety and Civil 
Liberties.

    If all else fails, domestic intelligence efforts, which have 
already detected terrorist plots by foreigners coming here intending to 
carry out attacks, may thwart future terrorist plots. Arriving 
terrorists would still have to acquire weapons or explosives, which 
would increase their risks of exposure.
    I, personally, have not done any research to determine precisely 
how each of these lines of defense might be improved. No doubt, some of 
the elements mentioned are already being examined by those in 
Government, but from the perspective of Congressional oversight, it is 
worth asking whether such examinations are in fact occurring. The 
challenge will be to integrate them into a National and international 
strategy aimed at intercepting foreign fighters before they enter the 
United States and before they return to VWP as well as non-VWP 
countries
    The VWP offers considerable commercial, diplomatic, and cultural 
benefits. Abandoning the program could overstretch consular office 
resources and would not necessarily offer improved security. In fiscal 
year 2012, nearly 19 million people entered the United States under the 
VWP; in fiscal year 2013, approximately 11 million residents of non-VWP 
countries applied to enter the United States on non-immigrant visas, of 
which 9 million were approved and 2 million were refused entry.\9\ The 
application and review process requires extensive documentation by the 
applicant and extensive investigation by U.S. authorities, including an 
in-person interview with a consular official. Abandoning the VWP would 
more than double the current workload. The VWP is not perfect, but 
neither are non-VWP procedures. The objective should be a level of 
security higher than the level we had before the VWP was initiated.
---------------------------------------------------------------------------
    \9\ U.S. State Department, ``Worldwide NIV [Non-Immigrant Visa] 
Workload by Visa Category FY 2013,'' 2013 (http://travel.state.gov/
content/dam/visas/Statistics/Non-ImmigrantStatistics/NIVWorkload/
FY2013NIVWorkloadbyVisaCategory.pdf). See also Alison Siskin, Visa 
Waiver Program, Washington, DC: Congressional Research Service, 
February 12, 2014.
---------------------------------------------------------------------------
    The conflicts in Syria and Iraq will continue for the foreseeable 
future. We will be dealing with their effluent for many years. It is 
therefore incumbent upon us to develop effective means for preventing 
the spillover of terrorist violence.

    Mrs. Miller. Thank you very much. I certainly would agree 
that Visa Waiver is a component and as we look at the thing in 
the overall. However, I think because of the evolving threat, 
the changing circumstances, that really, as I say, has 
necessitated this hearing today and has certainly been the 
impetus for many Members of Congress speaking out about this 
particular program if we try to examine where we have 
vulnerabilities.
    Some--you know, and I appreciate their concern--have 
actually suggested eliminating this program. I am not in that 
posture. Although we are trying to understand how necessary the 
program is for us economically and what we need to do to make 
sure that we don't have vulnerabilities that we are not really 
looking at.
    I just was trying to take some notes during your testimony. 
Mr. Dow, you were suggesting in the case of South Korea, for 
instance, some of the numbers that you were citing were 
remarkable in the increase of travel that has happened there 
since they have been a participate in the Visa Waiver. As you 
mentioned, 23 million travelers last year through the Visa 
Waiver countries. Those are some really amazing numbers, 
really.
    Also, Dr. Bucci, as you were saying, that we should ask the 
administration for a list of countries to actually expand the 
Visa Waiver Program. We may take you up on that. I think that 
is a very good suggestion. You were talking a bit about Poland, 
for instance. As I was listening to you, I think you were 
talking more in bringing them on-board in terms of 
geopolitical--as a motivator, rather than economic. Although 
economic certainly, as well.
    I guess I would just ask perhaps Mr. Dow or Mr. Bucci, I 
don't know if you want to suggest any other countries, other 
than Poland. But what are your thoughts on something like that, 
of actually using that as a--excuse me--as Dr. Bucci was 
talking about in regards to Poland. As you were saying, 
particularly because of what is happening in Russia. To me, I 
think that is an extremely powerful motivator. More than the 
economics, quite frankly. But Mr. Dow?
    Mr. Dow. I totally agree with Dr. Bucci as far as giving 
the flexibility to Homeland Security to increase, as they did, 
to 10 percent. That is how we added 8 Visa Waiver countries 
that have been very safe. Countries that we would consider 
important are--in addition to Poland--would be Brazil, Israel, 
Croatia, Argentina, Bulgaria, Panama, Romana, and Uruguay. 
There are 9 countries that are very close to those numbers that 
we are looking at, and a slight change would enable us to look 
at them.
    If you just took Brazil, Poland, and Israel and Croatia and 
added them, immediately, within 1 year, I guarantee you would 
have a million new visitors to the United States who would 
spend $11 billion and 61,000 jobs. So this is a great 
opportunity. But we have got to have the strict standards you 
talk about, improve the program as you said, and then look at 
adding Visa Waiver--to countries the Visa Waiver Program, which 
would actually increase our security.
    Mrs. Miller. Anybody else want to comment on that?
    Mr. Bucci. Just that any of the countries with which we 
have treaty alliances, that we are willing to fight together 
with against a common enemy, should at least be considered for 
this program. They should meet the standards and preferably 
have the waiver ability to the higher standard. Because we 
think that visa refusal rates is not necessarily the best 
measure of it. We think having a accurate overstay rate metric 
would be better. Not--and I know the committee really likes the 
biometric exit thing. We would love to see biometric exit, if 
we could get the administration to start counting the overstay 
rate at all, even with the current methodologies, then the 
expense of a biometric exit would be I think worthwhile.
    Right now, until we can get them to do that, adding the 
biometric requirement, it would be another really expensive 
program that the administration wasn't using. So I like the 
idea. But we have got to get the administration to actually do 
the overstay counting and enforce it. If we could add those 
things, I think there are several countries that we could get 
in here that would have great benefit geopolitically in 
addition to the security.
    I love the economic part. But you know what, if it really 
hurt the security, I would say bag the economics. They agree 
with me. But it is--right now, it actually helps security. So 
we should--you know, you don't often get those two coming 
together. It is nice to utilize it when it does.
    Mrs. Miller. Dr. Frey, it looks like you want to jump in 
here.
    Mr. Frey. I do, yes.
    Mrs. Miller. But I have one other question for you, as 
well.
    Mr. Frey. Okay. Well, let me make a brief point----
    Mrs. Miller. Okay.
    Mr. Frey [continuing]. About--just because it is a perfect 
follow-up from Dr. Bucci's comment.
    Security does have to be paramount. In that context, it is 
worth noting that for potential countries, the Visa Waiver 
Program has served as a tremendous incentive to raise security 
standards and begin to cooperate on these issues. To cite just 
two examples of the countries named, both Poland and Croatia, 
for example, have already signed and are implementing the 
information-sharing agreements that we are talking about in 
anticipation of being qualified for VWP when and if the time 
comes.
    So we are reaping benefits from a security perspective just 
by holding the carrot out to these countries and saying here 
are your target, you might as well start meeting it now. These 
countries have generally done so.
    Mrs. Miller. But what do you make of the fact I mentioned 
in my opening state that after a recent terrorist attack in 
Europe, all of a sudden we received quite a bit of information 
of names that had previously not been on our radar screen here 
from some of the Visa Waiver countries? You were talking a 
little bit about these audits that the Department does and that 
you have been personally involved in. Maybe you can flesh that 
out a bit. What is your thought on that?
    Mr. Frey. Yes, thank you, Chairman Miller.
    I think that as you have said and others have said, 
information sharing and intelligence sharing is the cue to 
this. To the extent countries are not meeting their obligations 
or we are finding out after the fact they are not meeting their 
obligations, there should be measured consequences for doing 
so. I was not aware of this particular issue. I do know from 
conversations with former colleagues at DHS and elsewhere that 
we are getting a number of names.
    I heard a--I think a statistic last week during testimony 
that there were something like 5,500 names provided--known and 
suspected terrorists provided to DHS via the so-called HSPD6, 
Known and Suspected Terrorist Information-Sharing Agreement. Of 
those 2,500 or so were new, folks that were not on our radar. 
The other 3,000 or so provided additional amplifying data, 
maybe another name, an alias, a phone number to information we 
already had.
    So I can't speak to this particular example. But as a 
general matter, yes, countries have signed up to a certain 
standard of information sharing with respect to both terrorists 
and criminals, and they ought to be held to that standard. If 
DHS finds out that they are not or it turns out that there is a 
gap, then that gap ought to be addressed.
    Mrs. Miller. Really in my last question, a comment really I 
guess, is that is part of our legislation, of course; is that 
we do give the Department of--the Secretary of Department of 
Homeland Security--tools is really what we are looking for. If 
we find that some of the Visa Waiver countries are not sharing 
information in the form that we need to be--to have our comfort 
level where it needs to be, that he has the ability to suspend 
these countries.
    I don't know if any of you have any thought about that 
portion of our bill. Dr. Bucci.
    Mr. Bucci. Yes, ma'am. I think that is a great idea. They 
should have that tool. Countries measure their interests in 
different ways at different times, and they sometimes shift. We 
saw an explosion of information sharing post-9/11. Everybody 
realized holy smoke, we really need to get on this. It got much 
better. Didn't get perfect. After the Charlie Hebdo attacks in 
France, several of our allies, maybe we should be sharing a 
little more than we were. They are. That will continue.
    But I think having the Secretary of DHS, having that 
ability to have a stick in addition to a carrot is useful. Used 
wisely, should keep that level of information sharing high.
    Mrs. Miller. Thank you.
    Chairman recognizes my Ranking Member.
    Mr. Vela. Thank you, Chairman Miller.
    Dr. Frey, I suppose that the reason the travel industry 
likes the Visa Waiver Program is because it just makes it more 
efficient for travelers coming over. Can you explain to me 
exactly what is it that a person traveling from a non-Visa 
Waiver Program has to go through that makes it more difficult?
    Mr. Frey. Thank you. I think--well, my colleague, Dr. 
Bucci, has already addressed part of that question. But the 
main inconvenience factor, if that is what you mean by makes it 
more difficult, is that if you don't have Visa Waiver status--
or, frankly, and it is important to clarify that even under 
Visa Waiver Program status, we are talking about travel to 
United States under one particular category of visa, the so-
called B visa for short-term stays up of to 90 days for tourism 
or business travel purposes.
    So even if you are a Visa Waiver country, citizens from 
that country who are coming over here to work, to study, or for 
any purpose longer than 90 days still has to go through the 
visa process. So we are talking about a subset of travel, not 
the entire visa system. But certainly for a non-Visa Waiver 
country, a citizen would have to go make an appointment at the 
embassy or consolate, fill out the visa application form, 
submit to an interview, present biometrics, a digital 
photograph, and fingerprints. Then there is vetting done. That 
person is ultimately issued a visa.
    I think it is worth making a couple of points in that 
respect, as well. The vetting done under the Visa Waiver 
Program is precisely the same as the vetting done under the 
visa program. The additional questions on the visa application 
relate much more to economic status and whether you have a job 
to come home to or property that you own rather than are you a 
security threat. So we can do sufficient vetting based on the 
information provided by ESTA. So the databases that the--either 
the State Department or CBP runs the information against are 
the same and return the same results.
    It is also worth pointing out, of course, that for a number 
of these countries, the United States issues 10-year, multiple-
entry visas. So even if you have an interview the first time, 
you have a 10-year period under which that interview is 
increasingly out-of-date. Now, the State Department does 
vetting, recurrent vetting on visa applicants, just as DHS does 
recurrent vetting on ESTA approvals. So you do have that 
backstop.
    But if someone is putting quite a lot of weight on the 
interview, even if you accept that it adds security value--and 
I would agree with my colleagues that compared to all the other 
benefits of the Visa Waiver Program, it more than makes up for 
what is in the interview. But even that interview has a 
fleeting value. Because it is once, the first time, and then 
you have potentially a 10-year, multi-entry visa.
    But just going to make an interview appointment, waiting in 
potential line at the consulate, et cetera, is what is the 
inconvenience factor associated with the visa travel for not 
much more, if any, security benefit. As a matter of fact, I 
would say not additional security benefit at all.
    Mr. Vela. Mr. Dow, I looked at the list of participating 
countries, and I didn't see Mexico on it. Is Mexico a 
participating country or not?
    Mr. Dow. We work with Mexico already and have the visa 
situation--visa--they have to have visas in Mexico.
    Mr. Vela. Okay. So they don't participate in the program?
    Mr. Dow. Right.
    Mr. Vela. Okay. Mr. Jenkins, you mentioned that in the 
future what we are expecting is about 10,000 European fighters 
going into the Middle East. What is your best estimate as to 
what we should do to--how do we track them, how do we make sure 
that when they leave the Middle East and go back to Europe that 
they are monitored and that for sure we do everything we can to 
prevent them from coming here?
    Mr. Jenkins. So this is--this relates to the previous 
issue, and in terms of intelligence sharing. The problem that 
the Europeans--not that I am here to defend Europeans. I mean, 
intelligence exchange arrangements are very, very complicated. 
Over a period of time, they also tend to become a bit routine. 
If it is not a front-burner issue, it takes a while to get 
lists updated.
    I think the avalanche of names seen after the Charlie Hebdo 
attacks in Paris reflects not simply their increased 
willingness to share with us, but also their realization that 
their compilation of those lists and sharing with one another 
was not at a level where it should be. We are going to depend 
primarily on them to help us keep track of those names. That 
is, those are their nationals. We can assist them in this. But 
we ultimately depend on their ability to do that. So we want to 
make sure that they have the very best list.
    The other areas where we can provide some assistance is on 
ground borders. Right now, everyone thinks that these people 
will return via airliners, which is--which has been true thus 
far. But right now, Turkey is a key to this thing. Because 
people are coming back from the Middle East into Turkey, and 
then crossing land borders into Greece or Bulgaria. These are 
countries--especially Bulgaria, it is a member of NATO, it 
needs resources. It can use some help in strengthening that 
land border. So we can help reinforce some of the priorities 
that the Europeans have already addressed.
    Mr. Vela. One last quick question. Of the current 3,000 or 
the expected 10,000 European fighters, can we tell what 
percentage of those are from Visa Waiver Program participating 
countries and which are not?
    Mr. Jenkins. By the way, let me clarify here that the 
10,000 is not my guess. The 10,000 is a guess by French 
officials as to what may happen. The number could be less, it 
could be greater than that. I expect to see these numbers will 
be on the move. Every revision we have seen, there have been 
dramatic increases every time.
    The bulk of those going from Europe are going from France, 
Belgium, the United Kingdom, Germany. Less--far less--smaller 
numbers going from Eastern European countries. So the bulk are 
going from a handful of Western countries. France recently 
revised its total up to 1,400 now that are believed trying to 
go or who have already departed for the Middle East. So it is 
primarily a handful of Western European nations.
    Mr. Vela. Thank you.
    Mrs. Miller. Thank you.
    The Chairman now recognizes and welcomes to the committee 
Mr. Hurd, Will Hurd from Texas, who--the gentleman has spent 
over a decade as a covert officer in the CIA. We certainly with 
your background welcome you so much as a new freshman to our 
committee.
    Mr. Hurd. Madam Chairman, thank you. Ranking Member, it is 
always a pleasure.
    One of my jobs when I was in--as an undercover officer in 
the CIA was--my cover job was stamping visas. So I am very 
familiar with this program. I would like to--you know, my 
denial rate was pretty high. So I was pretty tough.
    One of the purposes of this hearing is to examine the 
programs and mechanisms that are in place of the Visa Waiver 
Program and which strengthens homeland security and help us us 
identify foreign fighters. My first question is to you, Mr. 
Frey. You talked about these DHA audits. What other controls 
are there to determine that the countries participating in this 
are following, you know, the rules and regulations of the 
Electronic System for Travel Authorization?
    Mr. Frey. Thank you for that question, Congressman. I think 
there are two--it is helpful to think about the Visa Waiver 
Program operating on two levels; the individual level, and the 
country level.
    To talk about the individual level, that is where ESTA, the 
Electronic System for Travel Authorization, is coming in. An 
applicant must go on-line to get authorization to travel, puts 
in biographic data. Just as recently as November, DHS added 
additional biographic data that they are collecting. They 
should be encouraged to continue to evaluate ESTA to look for 
additional information that will be helpful for a vetting 
process.
    Then that--the traveler will get a red light or a green 
light as to whether or not they have an ESTA approval. If they 
do not have a green light, the airline will not board them for 
a flight.
    Mr. Hurd. So to be clear, you can't just wake up--I am a 
Frenchman, I wake up one day, I want to go to New York City. I 
just can't go to the airport and jump on a plane?
    Mr. Frey. That is right. That is precisely right. Prior to 
ESTA, you could do something very similar to that. That was 
precisely the reason in 2007 that we implemented the Electronic 
System for Travel Authorization; to give us advance notice, to 
allow us to do the advance vetting, so that you couldn't do 
that as a Frenchman.
    Airlines are now fully compliant. Again, while I am sure as 
in everything it is possible for mistakes to happen, airlines 
are subject to fines and other penalties if they transmit or 
transport people without proper ESTAs, just as they are if they 
transmit and transport people without proper visas.
    So that is the individual level. At the country level, the 
DHS team goes in, reviews the security standards, talks to CT 
and security officials to get a sense of how things are going, 
looks at how passports are being issued and, in fact, 
manufactured and what vetting is done on passport holders, for 
example, to make sure they are meeting the citizenship 
requirements and have criminal background checks and all the 
things these countries implement. Go to the land border, go to 
the airports to review security procedures and vetting 
capabilities. So it is a fairly intensive review; one where 
DHS, along with elements of the intelligence community and, of 
course, the State Department and potentially the FBI go in and 
ask these questions.
    Mr. Hurd. That type of audit, how often does it happen?
    Mr. Frey. That formerly happens per the statute at least 
every other year. It is probably a 6- to 9-month process from 
beginning to end. In between, DHS has set up a sort-of a 
continuous monitoring process using its assets overseas, 
whether CBP or ICE or obviously State Department personnel, and 
gets reporting on that.
    Mr. Hurd. For France, the United Kingdom, Germany, Belgium, 
are you aware of whether this review has been done in the last 
6 months?
    Mr. Frey. I am not aware of the exact cycle and whether 
they have been done in the last 6 months.
    Mr. Hurd. Okay. All right. Thank you.
    Dr. Bucci, this question is for you. I guess compare and 
contrast the information sharing that happens between countries 
that are part of the Visa Waiver Program and not part of that.
    I would welcome, Dr. Frey, your insight and the other 
gentleman on the panel's insight on this question too.
    Mr. Bucci. Well, it kind of depends on the bilateral 
agreements. Info-sharing traditionally is done bilaterally. 
When I was the attache in Albania, we established an info-
sharing regime with them. It was not as intense as this. It was 
not as routinized as this. So you would have to go across the 
whole country, Congressman, our whole world, looking at each 
individual bilateral agreement.
    Friendly countries, we usually have some sort of info-
sharing or intelligence-sharing arrangement with them. Some it 
is very little. Some it is pretty extensive. This is probably 
one of the broadest compilations of information sharing that 
you will find, other than the very specific, like the Five Eyes 
is kind of relationships that we have with those very specific 
countries.
    But this is tailored to take care of the traveler, the 
information that DHS needs to find someone who is traveling 
with mal-intent. I think that the various programs that are 
illustrated on that graphic I referred to are pretty extensive, 
are pretty well-selected to give DHS the information it needs. 
If it needs to call on other parts of the U.S. Federal 
Government, fine. But this is a--the Visa Waiver Program gives 
them a pretty enormous set of tools to find the bad guys if 
they are coming in this way.
    Mr. Frey. Thank you. I would agree with all of that and add 
a couple points. Just one, in many cases, the Visa Waiver 
Program builds on already very strong information sharing. You 
mentioned the Five Eyes. Of course, with the exception of 
Canada, those countries are all under the Visa Waiver Program. 
So there are relationships there.
    What the VWP does in those cases which is very important, 
as you said, it institutionalizes those relationships, some of 
which may be based on personal relationships or--you know, and 
people obviously rotate to other jobs. This makes it automated, 
and it makes it institutionalized.
    With newer countries--newer members of the program or 
countries with which the United States has had a shorter 
relationship, it really is what kick-started the information 
sharing. So that is what produces, when put together, the real 
value of the information sharing under the program. Because it 
is calibrated towards each of these countries and what 
information they have.
    Mr. Hurd. Thank you. Thank you.
    Mrs. Miller. Thank you.
    The Chairman now recognizes the young lady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you. Good morning. I thank the 
Chairman very much. I thank the Ranking Member for this very 
valuable hearing. I recall that this subcommittee, Madame 
Chairman, and Ranking Member have really been on point on the 
Visa Waiver issue.
    As you may recall, we did a hearing in September 2014. 
Really, seems as if we have been doing a number of things, and 
even passed a bill if I recall when we did the border security 
bill that we were very concerned about the issue of Visa 
Waiver.
    To the witnesses, let me thank you for your testimony and 
mention that this hearing is more potent probably in this time 
and era than ever--that we have ever had questions of Visa 
Waiver Programs. I have seen this over my years of service in 
the United States Congress. As we note, our friend and ally 
Turkey, continually in the spotlight because of its border and 
relationship--or its relationship to Syria. Whether or not it 
is Denver teenagers leaving and going through Turkey or London 
teenagers going through Turkey, then we know for sure that 
foreign fighters can travel, and particularly those who have 
Visa Waiver structures in their own countries.
    I would like to ask unanimous consent to put into the 
record H.R. 48, Madame Chairman. It is a bill that I hope that 
we can work on together in the Homeland Security Committee, 
both this committee, it is to review a--to require a review of 
the completeness of the Terrorist Screening Database maintained 
by the Federal Bureau of Investigation and the derivatives 
terrorist watch list utilized by the Transportation Security 
Administration and for other purposes.
    Mrs. Miller. Without objection.
    [The information follows:]

114TH CONGRESS

1ST SESSION

                                 H.R. 48

To require a review of the completeness of the Terrorist Screening 
Database (TSDB) maintained by the Federal Bureau of Investigation and 
the derivative terrorist watchlist utilized by the Transportation 
Security Administration, and for other purposes.


                    IN THE HOUSE OF REPRESENTATIVES

                            January 6, 2015

Ms. Jackson Lee introduced the following bill; which was referred to 
the Committee on the Judiciary

                                 A BILL

To require a review of the completeness of the Terrorist Screening 
Database (TSDB) maintained by the Federal Bureau of Investigation and 
the derivative terrorist watchlist utilized by the Transportation 
Security Administration, and for other purposes.
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``No Fly for Foreign Fighters Act''.

SEC. 2. REVIEW OF THE COMPLETENESS OF THE TERRORIST SCREENING DATABASE 
                    (TSDB) MAINTAINED BY THE FEDERAL BUREAU OF 
                    INVESTIGATION AND THE DERIVATIVE TERRORIST 
                    WATCHLIST UTILIZED BY THE TRANSPORTATION SECURITY 
                    ADMINISTRATION.

    (a) In General.--Not later than 90 days after the date of the 
enactment of this Act, the Attorney General, acting through the 
Director of the Terrorist Screening Center, shall complete a review, in 
coordination with appropriate representatives from the Department of 
Homeland Security and all other relevant Federal agencies, of the 
completeness of the Terrorist Screening Database (TSDB) and the 
terrorist watchlist utilized by the Administrator of the Transportation 
Security Administration to determine if an individual who may seek to 
board a United States-bound flight or a domestic flight and who poses a 
threat to aviation or national security or a threat of terrorism and 
who is known or suspected of being a member of a foreign terrorist 
organization is included in such Database and on such watchlist.
    (b) Report.--Not later than ten days after the completion of the 
review under subsection (a), the Director of the Terrorist Screening 
Center shall submit to the Committee on Homeland Security of the House 
of Representatives and the Committee on Homeland Security and 
Governmental Affairs of the Senate a report on the findings of such 
review.

    Ms. Jackson Lee. The other purposes includes this question 
of Visa Waiver. I think that we would be in a strong position 
to move forward on legislation like that.
    Let me focus my questioning, Mr. Jenkins and others who may 
wish to answer. Please, steer me if I am making a misstatement. 
But I believe the Terrorist Center Database and the watch list 
is not created or maintained by DHS. This is done by 
intelligence agencies; is that correct? So I have a concern 
that the data sharing from the Visa Waiver Program nations has 
to be shared with the DHS through the terrorist screening 
database and watch list.
    The premise of my statement is that you are all four here 
raising important concerns. I know there is a value to the Visa 
Waiver Program, because I know that Poland for decades has been 
asking to participate, and others in this program. The long 
list continues to have countries that wish to be part of it.
    So my question is--let me start with Mr. Jenkins. I heard a 
comment being made at the table that this administration 
doesn't keep a list. Having served just a few years in the 
Congress, I can say administrations don't really keep after 
visa waivers. That is why the United States Congress continues 
to have these hearings.
    So Mr. Jenkins, since we are problem solvers, I would ask--
you just heard the premise of my legislation--a greater sharing 
of the database with the Department of Homeland Security and 
some infrastructure dealing with Visa Waiver lists, overstays, 
to really get us in the business of Visa Waiver, making it 
work, but also protecting the Nation.
    Mr. Jenkins. In terms of the management of--the fact that 
one agency may manage the list, put together, assemble these 
lists and manage it, should not interfere with other agencies 
having access. So an ESTA application, however it comes in and 
is processed, it is checked against the tide and the other 
lists that reside in other parts of the U.S. Government.
    So the fact that DHS is not the manager of this database is 
not an impediment to checking of names. In fact, names--matches 
have been found on ESTA applications, and potential terrorists 
denied entry as a consequence.
    Ms. Jackson Lee. Well, I will follow up with that. It 
should not be an impediment. But I think there is no intent in 
my question to suggest that the management be switched. The 
intent of my question is to indicate that DHS does not manage 
it. So it is an agency that has responsibility for domestic 
security. I believe there should be a more structured role for 
DHS in the sharing--or in the handling of the list. So I always 
think that we can improve the quickness, the accuracy of the 
list. I think the Department of Homeland Security should be 
engaged in that.
    Mr. Jenkins. I would certainly agree with that. Here is an 
area where as I say, Visa Waiver Program is one component. In 
increasing the intelligence role, the capabilities and 
intelligence role of both immigration as well as Customs and 
Border Patrol----
    Ms. Jackson Lee. Yes.
    Mr. Jenkins [continuing]. Which are DHS agencies, that is 
something that has been recommended by other groups already; 
that these are a line of defense and we can do more of that in 
that area.
    The other thing is in terms of building a National strategy 
that will bring all of these key players together, agencies 
within DHS, those within the intelligence community, State 
Department, and so on, to ensure that these are not isolated 
separate lines of defense but, in fact, part of a multi-layered 
system of defense. That, I think, has to be our goal. That is 
going to take some--this is a big, complicated Government. That 
takes--that is an issue--to ensure that that is being done is 
an appropriate role for Congressional oversight.
    Ms. Jackson Lee. If I just may conclude, I will just end on 
this note. I see my time is over. I thank the Chairman and the 
Ranking Member for their indulgence.
    As we train Customs and Border Protection and Border Patrol 
Agents always put it in the context of the Constitutional 
protections that we have, citizens may be caught up in the 
movement in and out of the country.
    But the other point is that I think the premise of the Visa 
Waiver Program is good, but we live in a different world. The 
very point that you made I think is an important instruction 
and one that I think can be modeled in this committee and used 
with H.R. 48 as a framework to have that gathering of layered 
coming together of the agencies to make a surefooted way of 
addressing the Visa Waiver Program, of keeping it, but as well 
ensuring that it is a program that does not have the loopholes 
that many of us see.
    I thank you for your testimony. I hope, Madam Chairman, 
that our friend Turkey, our ally, that we can begin to work 
with them as other countries on some of the challenges that 
they are facing and some of the challenges that are posed 
because of their geographic location. I yield back.
    Mrs. Miller. Chairman now recognizes the gentleman from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Madam Chairman.
    Dr. Bucci, in your testimony you cite to 2012 GAO testimony 
and a 2011 GAO testimony report that found that only roughly 
half of the 36 countries in the Visa Waiver Program at that 
time were participating in the information-sharing agreements 
as they pertain to terrorist watch lists or crime. Now, I know 
these figures have reportedly improved. Do you know how many 
there are now?
    Mr. Bucci. The last report, Congressman, said that pretty 
much all of the participating members in the program had now 
vastly improved in their information sharing and were trending 
to reaching a level where they needed to be. That is because 
not everyone is there yet. That is one of the reasons why we 
support the giving the Secretary that ability if somebody backs 
off on that, that he has that stick.
    So they are moving in the right direction. I think we can 
comfortably say now that all 38 members are sharing 
information. Some are sharing a little more than others. But 
they are all moving in the positive direction.
    Mr. Barletta. But not all to the level where we are 
satisfied that they are sharing all of the information?
    Mr. Bucci. No. It is not 100 percent equal across the 
board.
    Mr. Barletta. So I guess Mr. Jenkins talked about the 
number of European fighters; that they are increasing as we 
speak. So why would we, or should we--why would we or should we 
allow any country to participate or not remove a country from 
the list who are not sharing the information to the level that 
we are satisfied with the threat to the United States? As we 
talk with so many European foreign fighters now being--joining 
ISIS, why would we not remove them or allow them to continue to 
participate until they do what we need?
    Mr. Bucci. I think we should remove them if they are not 
meeting that. But I think at that point today that DHS would 
tell you, and the GAO most recent reports would say, that 
everyone is reaching that standard. Now, as I say, some are 
sharing even more. But some of those are countries like the 
United Kingdom that we have had long-standing intel-sharing 
agreements that go way beyond anything that is in this program.
    So the ones that are exceeding those things--the others are 
not gonna reach the standard that the United Kingdom has. We 
don't share that kind of information with them. So at this 
point, I would agree if there were someone who was being very 
recalcitrant, not sharing the information--and then the last 
part, Congressman, I will throw out. In some cases we don't 
know what they are not sharing. We found out with France all of 
the sudden hey, they had a whole bunch of people that they were 
watching that they hadn't told us about. I don't think it was 
any mal-intent there. They felt that those people didn't rise 
to the level that they needed to share it. After Charlie Hebdo 
they realized yes, that was a bad call, they needed to be 
sharing that. Now they are.
    So this kind of thing--and I will be honest with you, the 
other aspect is that some of this is the result of Mr. Snowden 
and the revelations that came out there that kind of put a 
little frost on info-sharing with some of our friendly 
countries that Charlie Hebdo I think blew the frost off a lot 
of them and they decided yes, maybe we didn't like that, but we 
have got to move forward on this to protect ourselves and for 
them to protect themselves.
    Mr. Barletta. A July 2013 GAO report revealed that DHS has 
lost track of over 1 million foreign visitors to the United 
States.
    Mr. Frey, what mechanisms does the Visa Waiver Program have 
in place to ensure that individuals who enter the United States 
under the program leave when they are supposed to?
    Mr. Frey. Thank you for that question, Congressman. I don't 
know if it is the right frame--I think what mechanisms does the 
Visa Waiver Program have in place. The Visa Waiver Program is 
part of the larger border security entry/exit program the 
United States has. As such, the Visa Waiver Program sort-of 
both benefits and in some cases suffers from some of the flaws 
or gaps in that program.
    I agree that--with some of my colleagues here and some of 
the statements made that DHS needs to produce these overstay 
numbers and show us the tracking methodology. They haven't to 
date for a host of reasons. But I think the data that I have 
seen, some of it at this point dated. But nevertheless, data 
that I have seen show that Visa Waiver Program travelers, as 
you might expect, don't overstay in any significant numbers. 
They come here for their business trip, they come here for 
their family vacation, whatever it is, and they go home.
    Mr. Barletta. How would we know that?
    Mr. Frey. Well, we know that because DHS does have a 
biometric--I am sorry--a biographic exit system based on the 
passenger manifest being submitted to Customs and Border 
Protection. Because the 99 percent-plus of Visa Waiver Program 
travelers travel via air, very few will enter or exit the 
United States via the land border, the system in that case 
works. To the extent that DHS can take the manifest from the 
airline, from British Airways going from J.F.K. to London and 
say oh look, here are the people who left. We saw when they 
entered; they entered 3 weeks ago. We check them off as they 
leave.
    Now, the system isn't perfect. Partly because there can be 
and have been, you know, name mismatches. Partly because some 
airlines, frankly, do a better job than others in giving a 
complete manifest. But that system is slowly improving. It does 
need to get better. I think every day it is getting better. But 
in the Visa Waiver air environment context, I think DHS has got 
fairly good visibility into who is coming in and in particular 
who is leaving.
    Mr. Barletta. That is great. Okay. Thank you. Thank you, 
Madam Chairman.
    Mrs. Miller. I thank the gentleman.
    The Chairman now recognizes the gentlelady from Arizona, 
Martha McSally. We also appreciate her joining our committee. 
She has served in the Air Force for 26 years previous to coming 
from--coming to Congress. She was the first female pilot, 
fighter pilot to fly in combat, and the first to command a 
fighter squadron.
    So we appreciate you joining our committee. We are looking 
forward to working with you.
    Ms. McSally. Thank you, Madam Chairman. I appreciate it.
    Mrs. Miller. Chairman recognizes.
    Ms. McSally. Dr. Frey, to follow up on the previous 
question, you mentioned that the administration has not 
reported the visa overstay numbers for a variety of different 
reasons. Could you go through some of those reasons?
    Mr. Frey. Happy to, Congresswoman. Obviously, happy to do 
so from my perspective. The administration or the Department 
may have different views of this.
    Ms. McSally. You may be more free to----
    Mr. Frey. That is true. I think that some of which--some of 
them I have already discussed. In the air environment, it is a 
biometric--I mean a biographic system that relies on the 
airlines to be able to submit the information. In the past that 
has been problematic. In part, for example, because there have 
been various airline mergers over the last several years. As a 
result of those mergers, they have been forced to integrate old 
IT systems. You know--and that has proven difficult sometimes 
in interfacing with CBP and getting the appropriate 
information. That problem I think has been a bit worsened by 
some of the lower-cost you know, budget carriers that have now 
been in the market that, again, they are not spending all that 
much time on these issues, or perhaps as much time as they 
should.
    I think though that the bigger problem, of course, is that 
the air environment is only part of this. It is a big part for 
the Visa Waiver Program. But it doesn't address the land border 
issue. If you really want to have an accurate overstay count, 
you are going to have to be able to address the land border 
problem. That from both an infrastructure and a resource 
perspective has proven to be a very difficult challenge as to 
how you ensure that folks are being identified and checked off, 
so to speak, when they depart via land. That has been a problem 
that DHS has really struggled with.
    So my view has always been that even if you move to 100 
percent foolproof air exit system--and I think DHS is very 
close, in the high 90s in terms of its ability to match by air, 
you are still leaving a fairly large gap in the land border. 
Until you close that, you are never going to have a true 
picture of the overstays.
    Of course, the final element here is this is all assuming a 
conversation about people who entered legally. Also I don't 
want to get--I don't want to--that is a different set of 
questions and a different set of challenges. But people who 
came in illegally aren't likely to check out legally in any 
event, which adds to the overall uncertainty.
    Ms. McSally. Other perspectives? Any other----
    Mr. Dow. I would just like the say that we--DHS has said to 
us that overwhelmingly the number of people leave. It is less 
than 1 percent overstay. Even if someone stays 92 days, then 
they get reported as an overstay. So those numbers.
    But we would like to see DHS release these numbers. We 
think it is very important for Congress to know, and we think 
that Congress should demand that they get these numbers so we 
can take a hard look and really understand that is going on.
    Ms. McSally. Great. Thank you.
    Mr. Bucci. Just real quickly, a lot of the overstays, 
Congressman, are, you know, students and people here on work 
visas. Not the VWP kind of travelers who are here for short-
term business meetings or vacation. The problem there is you 
have got to get those institutions who have sponsored those 
people, either the companies that have hired them or the 
universities that have accepted them to let you know when they 
disappear.
    Until we get that system going--and I know it has been 
years and years, and they don't seem to want to get them to do 
that. That is what really drives your overstay rates for the 
overall system up tremendously. It is really not the VWP folks.
    Ms. McSally. Great. Thanks. Turning to another question 
on--I know there has been expanded data collected from those 
that are applying. Do you think that is enough? I mean, it is 
still less than 20 questions versus somebody who has an in-
person interview is about 100 questions. Do we need to expand? 
What sort of additional data would be required if we wanted to 
do that?
    Mr. Frey. Sure, I am happy to take that first. I think that 
what DHS did in November was good. I think they evaluated what 
additional data they needed to do appropriate vetting, and that 
was the answer they came to. I don't think it should stop 
there. I think they should continue to evaluate, and I think 
they will continue to evaluate.
    But I think that the biographic information provided on the 
ESTA form, certainly now that it has been expanded, gives you 
all you need to do the appropriate security vetting. Most of 
the other--the vast majority of the additional questions on the 
visa form are not for security vetting purposes. They are for 
economic immigration purposes; do you have a house, do you have 
a job, what are your family ties back in the country? So that 
information is sort-of, kept off from the application when it 
goes in for security vetting in any event.
    So I think the short answer is yes, DHS probably has what 
it needs now, but that shouldn't stop it from looking for more 
as the situation evolves.
    Ms. McSally. Okay. Great. My time is expired. So if you 
just have a brief comment.
    Mr. Bucci. Just that this kind of thing never stops. This 
is gonna be a process we are gonna have to continue to improve 
as we get better computer analysis capability tying in these 
other databases. This stuff is gonna go on. This is not 
something that you pass the law today and we are done. As much 
as Americans like those kind of solutions, in this case that is 
not one of those situations.
    Ms. McSally. Great. Thank you.
    Thank you, Madam Chairman. I yield back.
    Mrs. Miller. Thank you very much.
    Just following up on that for my closing comment here, I 
just wonder if there is any question that we have not asked the 
four of you, as you have all had a opportunity to review our 
bill. I am on a mission with this bill. We hope to mark it up 
and bring it to the full House, full floor at some point here 
shortly. So if there is something else that we should be doing 
in there, we would appreciate you telling us at this time, 
understanding that it is always going to evolve.
    Mr. Bucci. Madam Chairman, I would just say that, you know, 
what you are doing is right. This is something that vitally 
affects our security and our economy and our relations with 
other countries. It warrants the Congressional oversight you 
are giving it. It is gonna be something that is gonna 
continually evolve, and should. So the positive way that your 
committee is looking at this and trying to approach the 
situation I think is the right answer. We need to keep at this. 
Because the bad guys are continuing to work at it. We need to, 
as well.
    Mrs. Miller. Yes. Mr. Dow.
    Mr. Dow. We also support strongly any improvements to this 
system and your bill; we are totally behind it, any way we can 
help.
    One thing that wasn't asked is, what would happen if the 
Visa Waiver Program was suspended. I will give you an example. 
In 2002, Argentina was put out of the program, and visitation 
to the United States dropped 60 percent. So let's take that 
number and apply it to all Visa Waiver countries. That is $114 
billion U.S., 600,000 jobs. Just a view--of almost $50 billion 
to earn 60,000 jobs.
    So I think we have to understand there are two types of 
terrorism. There is economic terrorism, and there is physical 
terrorism. I think we have to guard against both. So in 
closing, we support what you are doing. We think it is 
absolutely important to continue to strengthen and improve this 
program.
    Mrs. Miller. Thank you. Anybody else?
    Mr. Frey. Sure. I would reiterate that and say that of 
course any measures--and I understand that that is not the 
intent here, and I agree with that. It should not be to suspend 
or terminate the program. Because we would also lose very 
important security benefits and we would--it had have a 
significant effect on our close allies in the face of a whole 
host of threats, including ISIS and foreign fighters, but also 
including Russia and other things. So I am glad to hear that 
that is not where we are going.
    Because there are sensible reforms. I think the bill in 
question makes those sensible reforms and does so not losing 
sight of what has been working in the Visa Waiver Program. So 
building on what is a very strong foundation. But I guess if 
you just asked me what was one more thing that needed to 
change--and I have been saying this for a number of years. In 
the beginning, I said it somewhat facetiously, but I am 
increasingly convinced. The name has to change.
    Mr. Bucci. So true.
    Mr. Frey. The Visa Waiver Program gives people the wrong 
impression. It makes it seem like you can--people are waived 
into the country----
    Mrs. Miller. That is true.
    Mr. Frey [continuing]. Without security checks. It is very 
hard to combat that. Because it takes quite a while to explain 
here are all the security checks DHS and other do when it is--
when it doesn't seem that way because of the name, so----
    Mrs. Miller. Do you have any suggestions on what we should 
call it?
    Mr. Frey. Sure. The one I have always liked is the secure 
travel partnership program. In part because the section of the 
9/11 Commission and Limitation Act that made ESTA and the 
information-sharing agreements is called the Counterterrorism 
and Secure Partnership Act of 2007. So I always thought that 
that was a nice way to phrase it. Because it is, it is about 
working with secure partners.
    Mrs. Miller. All right.
    Mr. Jenkins, do you have any final comment?
    Mr. Jenkins. No. I like the title too. But I would extend 
our--again, the scope. I know the focus here is the Visa Waiver 
component. But again, to push and make this part of a National 
strategy where we really emphasize both internally among the 
agencies in the United States Government, but also externally 
with our partners on this; that we can utilize all aspects, 
everything from improving land border security in particularly 
exposed countries to shaping the expansion of PNR data that is 
going on right now in Europe, to Visa Waiver, to expanding the 
role of CBP and ICE, that should be part of a National and 
international strategy that gets us into really secure travel.
    Mrs. Miller. Okay. Well, thank you all, gentlemen. I 
certainly appreciate, the committee appreciates all of you 
being in attendance today and for your excellent testimony. I 
think we all learned a lot today. I know I have some ideas of 
what we want to do with this bill. So I want to thank you all.
    Pursuant to Committee Rule 7(e), the hearing record will be 
held open for 10 days. Without objection, the committee stands 
adjourned.
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
